                    OFFICE O F THE INSPECTOR GENERAL
                     CORPORATION FOR NATIONAL AND
                           COMMUNITY SERVICE




                            OIG Letter Report Regarding
                   Corporation For National and Community Service
                                  Compliance With
                   The Government Information Security Reform Act


                               OIG Report Number 02-04
                                  September 26,2001




                          FOR OFFICIAL USE ONLY

This letter report contains information about Corporation computer security
practices and vulnerabilities. All recipients of this report should take care to
prevent the unauthorized disclosure of the report or its contents. Requests for
release of this report or its contents must be referred to the Inspector General.




                           GSA Contract No. GS-23F-8127H
                           Purchase Order No. 2001062 10003
                                 Task Order No. 00-01




This letter report was issued to Corporation management on October 5, 2001. Under
OMB's implementing guidance, the Corporation must provide a plan of action and
milestones to address identified security weaknesses by October 3 1, 2001, and thereafter
provide quarterly status updates on remedial efforts. Additionally, OIG is required under
GISRA to conduct follow-up evaluations in 2002. Weaknesses and corrective actions
contained in this report will be included in the audit resolution process. The Corporation
must make final management decisions no later than April 3, 2002 and complete its
corrective actions by October 5,2002.
                                                                                      CORPORATION
                    Letter Report Regarding Compliance With
                 The Government Information Security Reform Act                       FOR NATIONAL
                            OIG Report Number 02-04



In compliance with section 3535 of Title 44, US Code, as added by the Government
Information Security Reform Act of 2000 (Public Law 106-398), CNS OIG performed
independent evaluations of the Corporation's information security program and practices
and its compliance with the Act. In performing these evaluations, OIG followed
implementing guidance and reporting instructions contained in two memorandums (M-
01-08 and M-01-24) that the Office of Management and Budget issued on January 16,
2001 and June 22,2001, respectively.

Between June and September 2001, OIG engaged KPMG LLP to analyze four elements
of the Corporation's information technology systems, including:

       - Momentum, the Corporation's financial management system
       - System for Programs, Agreements and National Service participants (SPAN)
       - The Corporation's Network
       - Agency-wide policies and procedures not specific to an individual system

For its analysis and related testing, KPMG used the CIO Council's "Federal Information
Technology Security Assessment Framework" and the NIST "Security Self-Assessment
Guide for Information Technology Systems" consistent with OMB's guidelines.

The assessments generally concluded that the Corporation has done a very respectable
job of providing agency-wide information security but noted two areas that need
improvement:

        - Strengthening program officials' involvement in assessing security risks,
         understanding business impacts, and evaluating mitigating security measures
        - Formally integrating security planning with overall information technology
         and business strategies and with resource allocation decision making

The CIO staff reviewed and commented on drafts of the four assessments (Appendices A
through D) attached to this letter report.

Because this report concerns Corporation computer security practices and vulnerabilities,
its distribution is limited to the Office of Inspector General and those management and
CIO personnel of the Corporation who have a need to know the information in order to
perform their official duties. It is also available upon request to the Office of
Management and Budget and the United States Congress. Due to the sensitivity of its
content, this report is exempt from release to the general public.




                                                                                Inspector General
                                                                                1201 New York Avenue, NW
                                                                                Washington, DC 20525
                                     Office of Inspector General
                         Corporation for National and Community Service's
                             Letter Report Regarding Compliance With
                         The Government Information Security Reform Act

                                                Table of Contents


RESULTS IN BRIEF .......................................................................................


PROJECT OBJECTIVES .................................................................................


METHODOLOGY ...........................................................................................


CHART 1 - GISRA ASSESSMENTS SUMMARY.........................................


APPENDIX A - GISRA ASSESSMENT SUMMARY OF AGENCY-WIDE
    POLICIES AND PROCEDURES ........................................................... A- 1


APPENDIX B - GISRA ASSESSMENT SUMMARY OF LOCAL AND
    WIDE AREA NETWORKS ...................................................................B- 1


APPENDIX C - GISRA ASSESSMENT SUMMARY OF MOMENTUM ... C-1


APPENDIX D - GISRA ASSESSMENT SUMMARY OF SYSTEM FOR
    PROGRAMS, AGREEMENTS AND NATIONAL PARTICIPANTS .. D-1


APPENDIX E - SUGGESTED RESPONSES TO OMB
    MEMORANDUM M-0 1-24 ....................................:..................... E- 1
            2001 M Street, N W.
            Washmgton, D.C. 20036




September 26, 2001

Inspector General
Corporation for National and Community Service
Washington, DC 20525

At your request, KPMG LLP (KPMG) performed an evaluation of the Corporation for
National Service's compliance with the Government Information Security Reform Act
(GISRA) and the implementing guidance issued by the Office of Management and
Budget (OMB) in OMB Memorandums M-01-08 and M-01-24. GISRA focuses on the
management of each agency's information security program, and directs that information
security vulnerabilities and their remediation be explicitly considered when the agency
annually considers its budget needs, priorities and allocation of funding. Our evaluation
used the CIO Council's Federal Information Technology Security Assessment
Framework along with the corollary guidance, Special Publication 800-26, issued by the
Department of Commerce, National Institute of Standards and Technology (NIST), as
required by OMB. The objectives of our evaluation were 1) to assess compliance of the
Corporation's management of its information security program, 2) to assess compliance
of the Corporation's operational and technical implementation of its information security
program, and 3) to test the effectiveness of the Corporation's operational and technical
implementation of its information security program.

Results in Brief
In general we found that the Corporation does a very respectable job of providing
agency-wide information security. It has a proactive staff, and management who
understand the importance of information security to the conduct of the Corporation's
business. It is strongest in its day to day operation and maintenance of the information
security infrastructure and in its personnel security awareness and training program.

The areas that need improvement (listed below) tend to be those that that stem from new
GISRA requirements:

   There should be strengthened involvement of program officials in assessing the
   security risks to their program areas, in understanding the possible business impacts
   and in evaluating the adequacy of the mitigating security measures that are in place.
   At present, information security planning principally has an operational focus, and is
   not forward looking. GISRA requires that security planning be formally integrated
   with overall information technology and business strategies and with resource
   allocation processes.
Office of Inspector General
Corporation for National Service
Page 2

   GISRA places a premium on documentation of information security policies and
   procedures, as well as, actual performance of the procedures. Two areas specifically
   need improvement in the degree of documentation:

   o System development life cycle (SDLC) processes, and
   o Routine, periodic review of information security controls and audit logs to assure
     that the reviews are actually being accomplished.

Project Objectives

The objectives of this project were to conduct an independent evaluation of the
Corporation's information security program and practices, to test the effectiveness of the
Corporation's security control techniques, and to ascertain the Corporation's degree of
compliance with the Government Information Security Reform Act and implementing
guidance from OMB.

Methodology

OMB Memorandum 01-24 requires the use of the CIO Council's "Federal Information
Technology Security Assessment Framework" (The Framework). Coupled with the
NIST "Security Self-Assessment Guide for Information Technology Systems", NIST
Special Publication 800-26 (The NIST Guide), the Framework provides a vehicle for a
consistent and effective measurement of the security status for a given asset. The NIST
Guide provides specific questions that identify the control criteria against which agency
policies, procedures and security controls can be compared.

The Framework is divided into five levels: Level 1 of the Framework reflects that an
asset has documented security policies. At Level 2, the asset also has documented
procedures and controls to implement the policies. Level 3 indicates that procedures and
controls have been implemented. Level 4 shows that the procedures and controls are
tested and reviewed. At Level 5, the asset has procedures and controls that are fully
integrated into a comprehensive life cycle program and into the strategic planning and
resource allocation processes of the agency.

The evaluation of the Corporation's assets was performed in accordance with the
Framework in the following four areas:

    Momentum (the Corporation's financial management system)
    SPAN (System for Programs, Agreements and National Service Participants)
    The Corporation's Network
    Agency-wide policies and procedures that are not specific to an individual system
Office of Inspector General
Corporation for National Service
Page 3

The Web Based Reporting System (WBRS) was not re-evaluated at this time, since it was
assessed in conjunction with the recent audit of the Corporation's Financial Statement for
Fiscal Year 2000.

In addition to the review of policies, procedures and practices, a Vulnerability and
Penetration Assessment was performed on the Corporation's external and internal
networks. More specifically, we attempted to simulate a number of security penetration
scenarios. The results of this assessment were generally favorable.

The results of the evaluations that were done using the Framework's methodology are
summarized in Appendices A through D. Chart 1 on the next page shows the results for
all four evaluations. The Framework Levels are shown as column headings with the
individual Corporation assets that were evaluated shown diagonally below them. The
NIST Guide's control criteria are shown as row headings. The control criteria fall into
three general groupings: Management Controls, Operational Controls and Technical
Controls.

In the main body of the chart a "Yes" means that the criteria for the specific control
objective at the specific Framework Level were met. A "Yes*" means that some
weaknesses were observed, but the criteria were generally met. A "No" means the
criteria were not met in some significant respect. The chart has similar ratings shaded the
same tone. The black areas are not relevant.

Appendix E contains suggested responses to the thirteen questions that OMB
Memorandum 01-24 requested the Inspector Generals to answer. The suggested
responses are based on the evaluations that were done, but there is not a direct one for
one correlation.
         -
Chart 1 GlSRA Assessments Summary
                          Level1    Level 2   Level 3   Level 4            Level 5




Control Objectives




                                                                  Page 4
  Office of Inspector General
  Corporation for National Service
  Page 5
                                           *****

  This report is intended solely for the information and use of the Office of the Inspector
  General, the management of the Corporation for National and Community Service, the
  Office of Management and Budget, and the United States Congress and is not intended to
  be and should not be used by anyone other than these specified parties.




7Y-
i/ Felipe   onso
   partn&f.,KPMG LLP
APPENDIX A
                                                                            Appendix A

                                    GENERAL
                    OFFICEOF INSPECTOR
                                 AND COMMUNITY
                      FOR NATIONAL
             CORPORATION                     SERVICE

                AGENCY-WIDE
                          POLICIES
                                 AND PROCEDURES
                   GlSRA ASSESSMENTSUMMARY


The Corporation for National Service (CNS) maintains both WAN and LAN connections for
its employees, contractors, and the classrooms of the AmeriCorps"Nationa1 Civilian
Community Corps (NCCC). There are approximately 800 computers on this network. The
Corporation's WAN connects LANs at the Corporation's five regional service centers, five
NCCC campuses, and several state offices with the Corporation's headquarters. Regional
service centers have local network servers; however, the majority of the Corporation's
network servers are located at Corporation headquarters in Washington, DC. These servers
also provide email and Oracle services to the entire WAN. The Corporation has a disaster
recovery site in Herndon, VA, to which headquarters is connected via a dedicated T1 line.

Momentum is the Corporation's financial management system. It is an Oracle based
proprietary system developed by AMS. The System for Programs, Agreements, and National
Service Participants (SPAN) is an Oracle based system used to manage the National Service
Trust and to provide ArneriCorps member information. The Web Based Reporting System
(WBRS) is a Lotus Notes Domino program developed to help both AmeriCorps programs and
the state commissions that transmit Corporation supplied grant funds to many sub-recipients
in each state, and to provide financial and program information to the Corporation.
Momentum and WBRS are outsourced and operate at remote data centers. The U.S.
Department of Agriculture, National Finance Center provides payroll processing for the
Corporation.

The senior CNS official responsible for agency-wide information technology policies and
procedures is the Chief Information Officer, Dave Spevacek.



CNS does a very respectable job of providing agency-wide information security. It has
proactive staff and management who understand the need for information security, and give it
priority. It is strongest in its day to day operation and maintenance of the information security
infrastructure and in its personnel security awareness and training program.

The areas in which it needs improvement tend to be those that are new requirements
stemming from GISRA. CNS has begun to involve senior program officials in assessing the
information security risks to their program areas and the mitigating security measures that are
in place. But, the extent of program official involvement is still limited, as is the assessment
of business risks and impacts.



                                            Page A - 1
                                                                          Appendix A
 gml
Information security planning has principally an operational focus, and is not yet forward
looking, nor integrated with overall information technology and business strategies.
Documented procedures are not yet established for the timely reporting of security incidents
to the Office of Inspector General and to external authorities, as required by GISRA. The
CIO acknowledges the requirement to update the reporting guidelines to comply with GISRA
and is in the process of completing that task. In the interim, the CIO has indicated they will
report security incidents to the OIG and appropriate external authorities.

Informality is preferred in many CNS processes, and there is relatively less documentation
than there would be in a larger agency. This occurs primarily because of the limited number
of information technology staff and overall resource constraints. Two areas specifically need
improvement in the degree of documentation: 1) system life cycle development processes, and
2) the routine, periodic reviews of information security controls and audit logs to assure that
the reviews are actually being accomplished.

The methodology used for this GISRA assessment is the CIO Council's Federal Information
Security Self-Assessment Framework. The Self-Assessment Framework requires the use of
the control criteria found in NIST Special Publication 800-26.

The following table summarizes the results of the assessment that was done based on the
above standards and criteria. The remainder of this report summarizes the key strengths and
weaknesses for each of the major control objectives. Each weakness is classified into a high,
medium and low severity rating. Special weight was given to those areas that are directly
addressed by the GISRA legislation.




                                           Page A - 2
                                                                                                              Appendix A




                            Level 1      Level 2        Level 3            Level 4             Level 5
       Control            Documented   Documented    Implemented     Tested and Reviewed   Fully Integrated
       Criteria             Policy     Procedures   Procedures and     Procedures and      Procedures and
                                                       Controls            Controls            Controls
 OVERALL                     Yes         Yes*            Yes*              Yes*                  No

 MANAGEMENT
 1. Risk Management          Yes          NO             Yes*              Yes                  NO
 2. Security Controls        Yes          Yes            Yes               Yes                 Yes*
 3. Life Cycle               Yes          Yes            Yes*               NO                  No
 4. Authorize                Yes          Yes            Yes               Yes                 Yes
 5. Security Plan            Yes          Yes            Yes*              Yes*                 No

 OPERATIONAL
 1. Personnel Security      Yes*         Yes*            Yes*              Yes                 Yes*
 2. Physical Protection     Yes          Yes*            Yes*              Yes*                 NO
 3. Production uo            n/a          n/a             n/a               n/a                 n/a
 4. Contingency Plan        Yes          Yes             Yes               Yes*                 No
 5. HardwareISoftware       Yes.         Yes             Yes               Yes                  NO
 6. Data Integrity          Yes          Yes             Yes               Yes                 Yes*
 7. Documentation           Yes          Yes*             NO                NO                  NO
 8. Training                Yes          Yes             Yes               Yes                 Yes
 9. Incident Response       Yes*         Yes*            Yes*              Yes*                 NO

 TECHNICAL
 I. Authentication   Yes                  Yes            Yes*              Yes                  Yes
  2. Logical Access  Yes                  Yes            Yes               Yes                  Yes
  3. Audit Trails    Yes                  Yes            Yes               Yes*                 No
* some weaknesses observed

                                                    Page A - 3
                                                                             Appendix A
 ma
A.          MANAGEMENT CONTROLS



I         ~ e v e 1l  Level 2      Level 3                    Level 4            Level 5
        Documented Documented Implemented                    Tested and      Fully Integrated
          Policy     Procedures Procedures and               Reviewed        Procedures and
                                   Controls                Procedures and        Controls
                                                              Controls
           Yes            No           Yes*                     Yes                 No
*       some weaknesses observed

Strengths: In accordance with OMB Circular A- 130, CNS's Computer Security policy
requires that risk assessments be conducted every three years or when major system changes
occur. This year, in conjunction with the re-accreditation process, risk analyses were
conducted for all of CNS's mission critical systems and network.

CNS has implemented a new procedure that requires agency program officials to formally
accept the responsibility for the risks identified to mission critical systems and for the level of
security provided to mitigate those risks.

Weaknesses: CNS does not have a documented risk assessment procedure or methodology.
The CNS policy does not provide guidance for integrating system risk management with
program management. Program officials have not been formally responsible for the levels of
risk and mitigation within the systems that support CNS's major programs. One of the
consequences is that the system risk analyses that were recently done do not address specific
business impacts. (severity: medium)

             2.    REVIEWOF SECURITY
                                   CONTROLS

        Level 1    Level 2     Level 3                        Level 4             Level 5
      Documented Documented Implemented                      Tested and       Fully Integrated
    1   policy   Procedures Procedures and                   Reviewed         Procedures and
    1                          Controls                    Procedures and         Controls
                                                              Controls
            Yes          Yes            Yes                     Yes                 Yes*
* some weaknesses observed
Stren~ths:Security controls for CNS's mission critical systems are reviewed and tested every
three years in conjunction with the re-accreditation process. For 2001, the accreditation was
limited to one year as CNS shifts to an annual accreditation program. The CNS Security Plan
details various security controls, the frequency with which they should be reviewed and
assigns responsibility for their review. CNS's computer security policy and procedures, also
require that security incidents be analyzed and remedial actions taken.




                                              Page A - 4
                                                                         Appendix A
 Mm
Weaknesses: A GISRA assessment in accordance with the CIO Council's Federal
Information Technology Security Assessment Framework was not done as required by OMB.
Corporation policies have not yet been updated to be in accordance with the GISRA
requirement for annual assessments. (severity: low)



       Level 1    Level 2     Level 3                      Level 4           Level 5
     Documented Documented Implemented                    Tested and     Fully Integrated
       Policy   Procedures Procedures and                 Reviewed       Procedures and
                              Controls                  Procedures and       Controls
                                                           Controls                         I
         Yes          Yes           Yes*                      No               No
     some weaknesses observed

Strengths: CNS has a documented policy and procedures for Life Cycle Management of
systems.

Weaknesses: There is very little documentation to show that life cycle procedures are
followed. Management states that the life cycle procedures are followed informally. Periodic
review and testing of life cycle procedures is not done, nor required by CNS policies.
(severity: medium)

          4.    AUTHORIZE
                        PROCESSING
                                 (CERTIFICATION
                                             AND ACCREDITATION)

 I     Level 1    Level 2     Level 3                      Level 4           Level 5
 I   Documented Documented Implemented                    Tested and     Fully Integrated
       Policy   Procedures Procedures and                 Reviewed       Procedures and
                              Controls                  Procedures and       Controls
                                                           Controls
         Yes          Yes            Yes                     Yes               Yes

Strengths: In accordance with CNS policies, all of CNS's mission critical application systems
were formally re-accredited in June 2001. During the re-accreditation process a security
evaluation and risk assessment were completed, and a security plan developed for the system.

Weaknesses: None Observed.




                                           Page A - 5
                                                                           Appendix A




    Level 1    Level 2     Level 3                           Level 4           Level 5
  Documented Documented Implemented                         Tested and     Fully Integrated
    Policy   Procedures Procedures and                      Reviewed       Procedures and
                           Controls                       Procedures and       Controls
                                                             Controls
      Yes            Yes             Yes*                     Yes*               No
* some weaknesses observed
Strengths: CNS has a documented security plan that identifies security related activities, the
time frame in which they are to be performed and the individuals or groups that are
responsible for performing the activities.

Weaknesses: CNS's agency-wide security plan details routine operational actions, but is not
forward looking. It does not describe a strategy for providing security to all of CNS's systems
and network, nor does it address how future deadlines for implementing security requirements
that are mandated by current legislation will be met. For instance, it does not describe the
steps the Corporation glans to take to comply with the Government Paperwork Elimination
Act (GPEA). A summary of CNS's security plans is not included in the IT strategic plan as
required by GISRA. (severity: medium)


B.     OPERATIONAL CONTROLS



    Level 1    Level 2     Level 3                           Level 4           Level 5
  Documented Documented Implemented                         Tested and     Fully Integrated
             Procedures Procedures and                      Reviewed       Procedures and
                           Controls                       Procedures and       Controls
                                                             Controls
      Yes*           Yes*             Yes*                     Yes              Yes*
* some weaknesses observed
Strengths: CNS's computer security policy is based on the concept of least privilege. Users
are granted access only to the information they need to perform their job.

CNS requires that an Information System Access request form be approved by management
prior to an employee being granted access to a CNS Information System.

The Corporation does not have a written policy regarding personnel screening of its
employees. The Human Resources Office reports that it requests a National Agency Check
on certain employees serving in certain selected positions after they are hired.




                                             Page A - 6
                                                                          Appendix A

Documented job descriptions exist for employees of the CNS Office of Information
Technology (OIT). Security responsibilities for the CIO and Information Systems Security
Officer are also documented in the CNS Network Security Plan.

Users of CNS information systems are advised of their rights and responsibilities through the
Network logon banner, security awareness training and the CNS Policy "Internet and E-mail
Access and Acceptable Use".

Weaknesses: Corporation security procedures for employee and contractor terminations are
not documented. Even for unfriendly terminations the procedures are informal and depend on
particular individuals being aware of each specific situation. (severity: low)

CNS has a small IT staff. The separation of duties is not specifically documented, and is not
as much as it would be in a larger organization. But, CNS management feels that there is
about as much separation of duties as is practical. (severity: low)

       2.      PHYSICAL
                      AND ENVIRONMENT
                                   PROTECTION

     Level 1    Level 2     Level 3                         Level 4           Level 5
   Documented Documented Implemented                       Tested and     Fully Integrated
 1   Policy   Procedures Procedures and                    Reviewed       Procedures and
 I                          Controls                     Procedures and       Controls
 I                                                          Controls
 1     Yes           Yes*            Yes*                    Yes*                No
* some weaknesses observed
Strengths: Access to the Corporation's Computer Room - Data Center is restricted. No
employees are permanently assigned to be in the Data Center, and all visitors to the Data
Center are required to sign in, in accordance with the CNS security policy.

Access to general office space is controlled by electronic access keys. Receptionists control
access for those without access keys.

In the event of a power outage, the Corporation has an Unintermptible Power Supply that will
allow it time to do an orderly shut down of its systems. Portable fire extinguishers are
available in Corporation office spaces, and an automated fire suppression system is installed
in the building.

Weaknesses: Risk assessments for Corporation facilities to identify threats, vulnerabilities
and potential business impacts are not required by CNS's security policy nor done on a
periodic basis. (severity: low) OIG has previously reported weak accountability for the
electronic access keys and for the master keys that control access to every floor. There are no
documented requirements or procedures for securing unused keys. (severity: medium)
Reception personnel do not consistently challenge visitors. (severity: low)




                                            Page A - 7
                                                                          Appendix A



I      ~ e v e 1l  Level 2      Level 3                     Level 4           Level 5         1
     Documented Documented Implemented                     Tested and     Fully Integrated
       Policy     Procedures Procedures and                Reviewed       Procedures and
                                Controls                 Procedures and       Controls
                                                            Controls
        nla           nla             nla                     nla                nla

Strengths: For systems that CNS operates on its own behalf, users of the system control all
input and output. There is no central operations staff at CNS. CNS also has two systems
whose operation is out-sourced to other service providers. In these cases too, input and output
is controlled by the system users.

Weaknesses: None observed.



     Level 1    Level 2     Level 3                         Level 4            Level 5
   Documented Documented Implemented                       Tested and      Fully Integrated
     Policy   Procedures Procedures and                    Reviewed        Procedures and
 I                          Controls                     Procedures and        Controls
 I                                                          Controls
      Yes          Yes                Yes                     Yes*               No
* some weaknesses observed
Strengths: CNS has a documented business continuity plan and a documented disaster
recovery plan.

CNS backs up data to tapes on a daily, weekly, and monthly basis. Tapes are rotated offsite
weekly.

CNS has contracted with SunGard to maintain a disaster recovery site at its Reston, VA
facility, and with the Department of Veterans Affairs to maintain workspace in Washington,
DC should CNS facilities become unavailable.

CNS tested the Disaster Recovery Plan in August 2001

Weaknesses: The business continuity plan has not been tested since 1999. The business
continuity plan is currently under revision and will be finalized based upon the results of the
disaster recovery plan testing that has recently been conducted. Business continuity and
disaster recovery plans have not been developed for Service Centers or State offices.
(severity: medium)




                                            Page A - 8
                                                                          Appendix A
 ma
During the review of the disaster recovery plan, it was noted that the address of the off-site
tape storage location was not listed. This information should be included in the disaster
recovery plan. (severity: low)

          5.    HARDWARE
                       AND SYSTEM
                                SOFTWARE
                                       MAINTENANCE

        Level 1    Level 2     Level 3                      Level 4           Level 5
      Documented Documented Implemented                    Tested and     Fully Integrated
        Policy   Procedures Procedures and                 Reviewed       Procedures and
                               Controls                  Procedures and       Controls
                                                            Controls
         Yes          Yes             Yes                     Yes               No

Strengths: Access to system software is restricted to a limited number of personnel,
corresponding to job responsibilities. New system software versions or products and
modifications to existing system software receive proper authorization and are supported by a
change request document.

Weaknesses: Hardware and system software maintenance controls are not fully integrated
into the Corporation's overall life cycle planning. The Corporation's System Development
Life Cycle methodology is not applied to the network. (severity: low)



        ~ e v e 1l  Level 2      Level 3                    Level 4           Level 5

 11   Documented Documented Implemented
        Policy     Procedures Procedures and
                                 Controls
                                                           Tested and
                                                           Reviewed
                                                         Procedures and
                                                                          Fully Integrated
                                                                          Procedures and
                                                                              Controls
 1
                                                            Controls
 I   Yes           Yes                Yes                     Yes               Yes*
* some weaknesses observed
Stren~ths: CNS has an agency-wide policy on Safeguarding Sensitive Information and
Documents that provides users with guidelines for storage, disposal and handling of sensitive
information and documents. In addition, it has application specific policies, procedures and
controls in place. It also has general personnel security, network access and facility access
controls in place that in combination protect data integrity.

Weaknesses: None observed for systems on the CNS LAN. Issues with W R S were noted in
the FY 2000 financial statement audit. (severity: low)




                                            Page A - 9
                                                                            Appendix A
 m a

       Level 1    Level 2     Level 3                     Level 4               Level 5
     Documented Documented Implemented                   Tested and         Fully Integrated
       Policy   Procedures Procedures and                Reviewed           Procedures and
                              Controls                 Procedures and           Controls
                                                          Controls
        Yes          Yes*              No                   No                     No
* some weaknesses observed
Strengths: CNS management states that because it is a relatively small agency, it is able to do
much through the direct involvement of its IT staff and top management, and through frequent
conversations with and among them; and therefore, there is much less of a need for
documentation than in a larger agency.

Weaknesses: Because of its size and limited resources, CNS documents its processes when it
is required by external authority, but usually favors informality. This relative lack of
documentation creates a situation in which it is difficult for a manager, auditor or other person
who has not been directly involved, to ascertain whether required processes are being done,
informally, or not at all. (severity: low)

         8.    SECURITY
                      AWARENESS,
                              TRAINING
                                     AND EDUCATION

       Level 1    Level 2     Level 3                     Level 4               Level 5
     Documented Documented Implemented                   Tested and         Fully Integrated
       Policy   Procedures Procedures and                Reviewed           Procedures and
                              Controls                 Procedures and           Controls
                                                          Controls                             j
                                                                                               i
 I
 I      Yes           Yes              Yes                  Yes                    Yes

Strengths: An ongoing, agency-wide security awareness program has been implemented. It
includes first-time training for all new employees, contractors, and users, and periodic
refresher training thereafter. Technical staff receive annual security training according to job
responsibilities and needs. Employees see and agree to the rules of behavior during their
mandatory annual security awareness training. A daily security reminder is automatically
displayed to employees during their login process.

Weaknesses: None observed.




                                             Page A - 10
                                                                           Appendix A



    Level 1    Level 2     Level 3                       Level 4               Level 5
  Documented Documented Implemented                     Tested and         Fully Integrated
    Policy   Procedures Procedures and                  Reviewed           Procedures and
                           Controls                   Procedures and           Controls
                                                         Controls
     Yes*            Yes*            Yes*                 Yes*                    No
* some weaknesses observed
Strengths: CNS has documented Incident Response Guidelines that contain internal
procedures to be followed if an incident is detected.

Weaknesses: CNS's Incident Response Guidelines do not specify under what circumstances
extemal federal authorities will be notified, nor under what circumstances the CNS Office of
Inspector General will be notified, as required by GISRA. They also do not call for
notification to owners of interconnected systems. The procedure for contacting other parties,
the points of contact, and the nature of the information to be provided to them is not
described. The CIO acknowledges the requirement to update their reporting guidelines to
comply with GISRA and is in the process of completing that task. In the interim, the CIO has
indicated they will report security incidents to the OIG and to appropriate extemal authorities.
(severity: medium)


C.     TECHNICAL CONTROLS

       1.                           ~ O NAUTHENTICATION
               ~ D E N T ~ F ~ C A TAND

    Level 1    Level 2     Level 3                       Level 4                Level 5
  Documented Documented Implemented                     Tested and          Fully Integrated
    Policy   Procedures Procedures and                  Reviewed            Procedures and
                           Controls                   Procedures and            Controls
                                                         Controls
     Yes           Yes                Yes*                 Yes                    Yes
* some weaknesses observed
Strengths: Access to CNS systems is granted on a need to know basis. Password policy and
procedures are clearly documented and provided to all users. All personnel who are given
access to the system, including those needing it for a limited duration, must follow the
standard procedures before being granted access. Emergency and temporary access is not
authorized until the standard access request procedures are followed. CNS authentication
policies and procedures are consistent across all systems on the CNS LAN.

Weaknesses: CNS management is aware that some CNS users have weak passwords, and
makes periodic efforts to educate users. Automated enforcement of strong passwords has not
been implemented. Additional authentication methods are not used. Analysis of the WBRS

                                            Page A - 11
                                                                                      Appendix A
 mn
been implemented. Additional authentication methods are not used. Analysis of the WBRS
resulted in recommendations to improve access and password controls as well as verification
of data inputs to the system. (severity: medium)

          2.       LOGICAL
                         ACCESSCONTROLS

      Level 1    Level 2     Level 3                            Level 4                  Level 5
    Documented Documented Implemented                          Tested and            Fully Integrated
      Policy   Procedures Procedures and                       Reviewed              Procedures and
                             Controls                        Procedures and              Controls
                                                                Controls
         Yes              Yes                Yes                  Yes                       Yes

Strengths: CNS has documented policies and procedures that require access to CNS systems
to be granted only on a need to know basis. At an application system level, users are required
to have management approval of their request for system access. CNS access control policies
and procedures are consistent across all systems on the CNS LAN.

Weaknesses: None observed for systems on the CNS LAN. During the OIG's audit of the
Corporation's Financial Statement for Fiscal Year 20001, analysis of the WBRS identified
weaknesses in access and password controls and in the verification of data inputs to the
system. The report noted that WBRS password entry attempts are not limited to three
attempts. Multiple failed attempts do not trigger a freezing of the account to defend the
system against unauthorized access. There is no enforcement of the suggestion that
passwords should be at least six characters long. The WBRS does not automatically log off
after a period of thirty minutes of inactivity. Additionally, the report recommended routine
review of WBRS error listings by an individual other than the person inputting data into the
system and spot checks of underlying support for the data submitted via WBRS on a periodic
basis. (severity: medium)



       Level 1    Level 2     Level 3                               Level 4               Level 5
     Documented Documented Implemented                             Tested and         Fully Integrated
       Policy   Procedures Procedures and                          Reviewed           Procedures and
                              Controls                           Procedures and           Controls
                                                                    Controls
 1      Yes           Yes                    Yes                     Yes*                    No            1
*    some weaknesses observed

Strengths: The Network Computer Security Plan provides agency-wide, but specific guidance
on the review of a variety of audit logs that are generated by the major CNS application
systems, servers and network devices.

     OIG Audit Report Number 01-01, Audit of the Corporation for National and Community Service's Fiscal Year
    2000 Financial Statements, and OIG Audit Report Number 01-02, Recommended Improvements to the
    Corporation's Internal Controls Fiscal Year 2000 - Management Letter.

                                                   Page A - 12
                                                                       Appendix A
 mm
Weaknesses: There is only verbal confirmation that the audit logs are regularly reviewed or
otherwise analyzed. (severity: low) Audit trail controls are not fully integrated into the
Corporation's overall life cycle planning. (severity: low).




                                         Page A - 13
APPENDIX B
                                                                         Appendix B

                   OFFICEOF INSPECTOR
                                    GENERAL
            CORPORATION
                      FOR NATIONAL
                                 AND COMMUNITY
                                             SERVICE

                     LOCALAND WIDEAREANETWORKS
                           GlSRA ASSESSMENT
                                         SUMMARY


The Corporation for National Service (CNS) Network consists of a local area network (LAN)
in the headquarters office, with high speed Frame Relay network provided by MCI for remote
Regional Service Centers, State Offices, National Civilian Community Corps (NCCC)
campuses, and two remote processing sites. Web servers reside on the public side of the
Corporation Network outside the headquarters firewall, and are provided by UUNET. A
single high speed Internet connection through the firewall is provided for all Corporation
users. Some dial-in service is provided for remote offices through a server-controlled modem
pool.

Mr. Tom Hanley, Deputy CIO, is the designated program official for the Corporation
Network, and is responsible for overall network security. The Office of Information
Technology (OIT) provides all administrative and problem support for IT equipment installed
in remote offices. OIT monitors network vulnerabilities, maintains an intrusion detection
capability on the network, and periodically performs its own penetration testing.



The CNS Corporation Network is generally well-protected through a combination of sound
security practices and continuing management attention.

Security policies relating to the Corporation Network are for the most part comprehensive and
well documented, but some have not yet been updated to reflect GISRA requirements. These
include the requirement for annual GISRA assessments; required reporting, when security
incidents occur, to the Inspector General and external authorities, such as FEDCIRC; and
integration of information security into the agency's strategic IT plan and overall agency
resource prioritization processes.

Information security plans are in place, but are almost totally operational in nature. More
strategic, forward looking elements should be incorporated in them that address such topics as
the Corporation's plans for compliance with the Government Paperwork Elimination Act
(GPEA) and GISRA, including the resources that will be required. Business Continuity Plans
are not current and do not include CNS entities outside the Washington headquarters. They
should be updated.

Procedures implementing network security policies are not as well documented as are the
policies, but are generally effective. Areas that need strengthening include procedures for




                                          Page B - 1
conducting risk assessments that incorporate business impact analysis and procedures for
applying a System Development Life Cycle methodology to the network;

Security controls for the Corporation Network are generally effective. One area that needs
improvement is the documentation of the results and review of audit logs and other security
measures to assure actual performance of reviews. Another area is authentication. CNS
management acknowledges that some CNS users have weak passwords, and makes periodic
efforts to educate users. Automated enforcement of strong passwords has not been
implemented, nor have additional methods of authentication been used.

The methodology used for this GISRA assessment is the CIO Council's Federal Information
Security Self-Assessment Framework. The Self-Assessment Framework requires the use of
the control criteria found in NIST Special Publication 800-26.

The following table summarizes the results of the assessment that was done based on the
above standards and criteria. The remainder of this report summarizes the key strengths and
weaknesses for each of the major control objectives. Each weakness is classified into a high,
medium and low severity rating. Special weight was given to those areas that are directly
addressed by the GISRA legislation.

One aspect of the ratings deserves mention. The criteria for meeting the Level 5 requirements
of the Framework is integration of information security plans into the agency's strategic
plans, and integration of the operational and technical controls into a life cycle methodology.
Lack of these two elements causes all Level 5 ratings for the network to be negative. But, this
should not overshadow the fact that CNS's information security practices are generally
effective.




                                           Page B - 2
                                                                           Appendix B
 Mfl8
A.      MANAGEMENT CONTROLS




F  Policy
              Level 2     Level 3
 Documented Documented Implemented
            Procedures Procedures and
                                                             Level 4
                                                            Tested and
                                                            Reviewed
                                                                               Level 5
                                                                           Fully Integrated
                                                                           Procedures and
                          Controls                        Procedures and       Controls
                                                             Controls
             1      No
* some weaknesses observed
                                     Yes*                      Yes*               No           I




Strengths: CNS policy requires that network risk assessments be performed in conjunction
with Corporation Network re-accreditations at least every three years. The current re-
accreditation of the network was completed in February 2001, and is limited to a one year
period. A risk analysis was completed as part of the re-accreditation process.

Weaknesses: Although risk assessments are periodically done in conjunction with re-
accreditation, CNS does not have documented procedures for how to do the risk assessments.
CNS contracts with a commercial vendor to perform this analysis and relies on the
contractor's methodology and expertise. The risk analysis that was completed for the network
this year found the risks overall to be low, but did not include a business impact analysis, nor
an analysis at the network component level. Network resources are not classified according to
their sensitivity or criticality. OIT has done informal assessments of risk at the network
component level, and has in place active redundancy, backup equipment, and spare parts for
critical elements of the Corporate Network. (severity: low)

A business impact analysis document does not exist, but business impacts were considered as
the Disaster Recovery Plan (DRP) was being written. Impacts noted in the DRP are
expressed as high, medium and low, and are not expressed in terms of functional impacts.
(severity: medium)

Risk Management procedures and controls for the network are not fully integrated into the
Corporation's overall life cycle planning. The Corporation's System Development Life Cycle
methodology is not applied to the network. (severity: low)



       Level 1    Level 2     Level 3                        Level 4            Level 5
     Documented Documented Implemented                      Tested and      Fully Integrated
       Policy   Procedures Procedures and                   Reviewed        Procedures and         1
                              Controls                    Procedures and        Controls           I
                                                             Controls
        Yes           Yes             Yes*                     Yes                No
* some weaknesses observed


                                             Page B - 4
                                                                         Appendix B
 mM
Strengths: CNS policy requires that security control reviews be periodically conducted in
accordance with OMB Circular A-130. A security controls review was completed in June
200 1, as part of the re-accreditation process.

OIT regularly conducts its own tests of security controls, and periodically has penetration
testing done by independent testers.

All users must log into the Windows NT network before logging into an application. Twelve
State Offices, five Service Centers and all NCCC campuses are connected to the Corporation
Network through a Frame Relay network provided by MCI. The other State Offices dial into
a Cisco AS5300 configured as a Point-to-Point Protocol (PPP) server. Dial-in users must pass
the AS5300's authentication routine of MS-CHAP which is provided by the Cisco Secure
ACS software, and then must log into the NT network. Then the user may log into an
application system under the control of an individual security profile.

Weaknesses: A GISRA assessment in accordance with the CIO Council's Federal
Information Technology Security Assessment Framework was not done as required by OMB.
In June 2001, a Security Controls Review was performed by a contractor as part of the
network re-accreditation process, providing roughly equivalent information in many areas.
(severity: low)

During August 2001, some vulnerabilities were discovered during KPMG's independent
penetration testing done in conjunction with this GISRA assessment. CNS took some
remedial actions. (severity: low)

Network security controls are not fully integrated into the Corporation's overall life cycle
planning. The Corporation's System Development Life Cycle methodology is not applied to
the network. (severity: low)



    Level 1    Level 2     Level 3                         Level 4           Level 5
  Documented Documented Implemented                       Tested and     Fully Integrated
    Policy   Procedures Procedures and                    Reviewed       Procedures and
                           Controls                     Procedures and       Controls
                                                           Controls
     Yes           Yes*             Yes*                     No                No
  some weaknesses observed

Strengths: CNS has a System Development Life Cycle (SDLC) policy and methodology.
On-going network security monitoring and pro-active measures, such as required security
training, awareness building, an aggressive virus protection program, access controls, and
remote site network management, are an indication of day to day management attention to
security.




                                           Page B - 5
                                                                         Appendix B

Weaknesses: CNS has a System Development Life Cycle (SDLC) policy and methodology,
but it has not been formally applied to the Corporation Network. Management stated that the
CNS SDLC is applied informally in their normal planning, acquisition, testing and
implementation processes for new network equipment and systems. (severity: low)

         4.    AUTHORIZE
                       PROCESSING
                                (CERTIFICATION
                                             AND ACCREDITATION)


 I     Level 1    Level 2     Level 3                      Level 4           Level 5
     Documented Documented Implemented                    Tested and     Fully Integrated
       Policy   Procedures Procedures and                 Reviewed       Procedures and
                              Controls                  Procedures and       Controls
                                                           Controls
        Yes          Yes             Yes                     Yes               No

Strengths: CNS policy requires re-accreditation of the Corporation's network every three
years, in accordance with OMB Circular A-130. Re-accreditation of the network was
completed in June 2001, for a one year period.

Weaknesses: Processing authorization is not fully integrated into the Corporation's overall
life cycle planning. The Corporation's System Development Life Cycle methodology is not
applied to the network. (severity: low)



       Level 1    Level 2     Level 3                      Level 4           Level 5
     Documented Documented Implemented                    Tested and     Fully Integrated
       Policy   Procedures Procedures and                 Reviewed       Procedures and
 I
 1                            Controls                  Procedures and       Controls
                                                                                            I
                                                           Controls
        Yes          Yes             Yes                     Yes               No

Stren~ths: CNS policy requires that each critical system have a system security plan. CNS
has such a plan for the CNS network. The plan was updated as of June 2001, as part of the re-
accreditation process.

Weaknesses: The Network Computer Security Plan is not fully integrated into the
Corporation's overall life cycle planning. The Corporation's System Development Life Cycle
methodology is not applied to the network. (severity: low)

A summary of the Security Plan is not included in the CNS Strategic IT Plan as required by
GISRA. (severity: low)




                                           Page B - 6
                                                                            Appendix B
ma
B.      OPERATIONAL CONTROLS



      Level 1    Level 2     Level 3                         Level 4            Level 5
    Documented Documented Implemented
1     Policy    /
               Procedures Procedures and
                             Controls
                                                            Tested and
                                                            Reviewed
                                                          Procedures and
                                                                            Fully Integrated
                                                                            ~rocedur&and
                                                                                Controls
                                                             Controls
       Yes*          Yes*             Yes*                     Yes                 No
*   some weaknesses observed

Strengths: Job descriptions within OIT reflect assigned responsibilities, include requirements
for technical knowledge, skills and abilities, and can be used for performance evaluations.

No one is authorized to bypass controls, or get access prior to the completion of the new
employee computer security training and supervisory authorization processes.

Weaknesses: Separation of duties is not explicitly mentioned in the Corporation Computer
and Network Policy. A "least privilege" access policy is implemented through job functions,
roles, and need-to-know policies. Termination procedures are not formally specified for
friendly vs. unfriendly terminations, but OIT is sensitive to potential threats, and takes action
based on specific situations. (severity: low)

         2.           AND ENVIRONMENT
               PHYSICAL            PROTECTION

       Level 1    Level 2     Level 3                        Level 4            Level 5
     Documented Documented Implemented                      Tested and      Fully Integrated
       Policy   Procedures Procedures and                   Reviewed        Procedures and
                              Controls                    Procedures and        Controls
                                                             Controls
       Yes           Yes              Yes*                     Yes
    some weaknesses observed

Strengths: The computer room at CNS headquarters that houses most of the network and
server components that comprise the CNS network is a restricted access facility. All access is
logged.

The computer room has an uninterruptible power supply that protects against power
fluctuations and outages.

Access to the Corporation's offices is controlled by electronic access keys. Receptionists
control access for those without access keys.

Weaknesses: OIG has previously reported weak accountability for the electronic access keys
and the master keys that permit access to every floor. (severity: medium) Reception


                                             Page B - 7
                                                                               Appendix B
.m
personnel do not consistently challenge visitors. (severity: low) A documented physical and
environmental risk assessment to determine the adequacy of the physical controls has not
been done. (severity: low)

Physical and environmental protection is not fully integrated into the Corporation's overall
life cycle planning. The Corporation's System Development Life Cycle methodology is not
applied to the network. (severity: low)

        3.     PRODUCTION
                        INPUTIOUTPUT
                                   CONTROLS

     Level 1    Level 2     Level 3                          Level 4               Level 5
   Documented Documented Implemented                        Tested and         Fully Integrated
 1   Policy   Procedures Procedures and                     Reviewed           Procedures and
 1                          Controls                      Procedures and           Controls
                                                             Controls
 I   Yes      I Yes* I                Yes          I           Yes         1         No
* some weaknesses observed
Strengths: Formal production input and output controls are in place for remote operations. A
help desk at CNS headquarters provides first level support for questions and technical
problems locally and nationally.

Weaknesses: Informal production input and output controls are in place in the CNS
headquarters. (severity: low)

Production input and output controls are not fully integrated into the Corporation's overall life
cycle planning. The Corporation's System Development Life Cycle methodology is not
applied to the network. (severity: low)



       Level 1    Level 2     Level 3                        Level 4               Level 5
     Documented Documented Implemented                      Tested and         Fully Integrated
       Policy   Procedures Procedures and                   Reviewed           Procedures and
                              Controls                    Procedures and           Controls
                                                             Controls
      Yes          Yes*                Yes                    Yes*                   No
* some weaknesses observed
Strengths: A Corporate headquarters Disaster Recovery Plan (DRP) and Business Continuityi
Contingency Plan (BCCP) are in place. A draft DRP has been prepared by DOI-NBC for the
Momentum system that includes telecommunications links. CNS tested the Disaster
Recovery Plan in August 2001.




                                             Page B - 8
                                                                           Appendix B
 'MM
An update of the disaster recovery document is pending, and will be completed now that the
disaster recovery test has been done. The Corporation has contracted for 100 seats at
SunGard.

Weaknesses: The BCCP has not been tested. The Service Centers and State Offices depend
upon headquarters OIT to restore their IT environment. They do not have documented
business recovery plans or capabilities for recovery of business functions. The file servers at
Service Centers are backed up to tape weekly on a four-week rotation. Tapes are kept in a
safe located in a room adjacent to the server room. A tape is sent quarterly to headquarters for
permanent archival. (severity: medium)

Contingency planning is not fully integrated into the Corporation's overall life cycle planning.
The Corporation's System Development Life Cycle methodology is not applied to the
network. (severity: low)

        5.     HARDWARE
                      AND SYSTEM
                               SOFTWARE
                                      MAINTENANCE

 I   ~ e v e 1l  Level 2      Level 3                        Level 4            Level 5
 / Documented Documented Implemented                        Tested and      Fully Integrated
 j   Policy     Procedures Procedures and                   Reviewed        Procedures and
 I

 I                            Controls                    Procedures and        Controls
                                                             Controls
        Yes           Yes              Yes                     Yes                No

Strengths: Access to system software is restricted to a limited number of personnel,
corresponding to job responsibilities. New system software versions or products and
modifications to existing system software receive proper authorization and are supported by a
change request document.

Weaknesses: Hardware and system software maintenance controls are not fully integrated
into the Corporation's overall life cycle planning. The Corporation's System Development
Life Cycle methodology is not applied to the network. (severity: low)



 i     Level 1    Level 2     Level 3                        Level 4            Level 5        I
     Documented Documented Implemented                      Tested and      Fully Integrated
       Policy   Procedures Procedures and                   Reviewed        Procedures and
                              Controls                    Procedures and        Controls
                                                             Controls
        Yes           Yes              Yes                     Yes                No

Strengths: Various general controls are in place to protect data integrity. Inappropriate or
unusual activity is investigated and appropriate actions taken. Technical management
monitors the use of privileged system software and utilities. Procedures are in place to



                                             Page B - 9
                                                                            Appendix B
 wa
determine compliance with password policies. Intrusion detection tools are installed on the
system. Internal and external penetration testing is performed as needed.

OIT maintains close ties with CERT, FedCIRC, SANS for virus alerts, keeps current with
Cisco maintenance, and keeps current with virus detection updates from Macafee.

Weaknesses: Data integrity controls are not fully integrated into the Corporation's overall life
cycle planning. The Corporation's System Development Life Cycle methodology is not
applied to the network. (severity: low)



       Level 1    Level 2     Level 3                     Level 4               Level 5
     Documented Documented Implemented                   Tested and         Fully Integrated
       Policy   Procedures Procedures and                Reviewed           Procedures and
                              Controls                 Procedures and           Controls
                                                          Controls
        Yes           Yes             Yes                   Yes                   No

Strengths: Network security policies and procedures are documented and current. The
security plan establishes and documents the security controls.

Network diagrams document the network topology. Configuration parameters for routers and
switches is documented.

Weaknesses: Documentation controls are not fully integrated into the Corporation's overall
life cycle planning. The Corporation's System Development Life Cycle methodology is not
applied to the network. (severity: low)

         8.    SECURITY
                      AWARENESS,
                              TRAINING
                                     AND EDUCATION

 1   ~ e v e 1l  Level 2      Level 3                         Level 4           Level 5

 1
 I
 I
   Documented Documented Implemented
     Policy     Procedures Procedures and
                              Controls
                                                             Tested and
                                                             Reviewed
                                                           Procedures and
                                                                            Fully Integrated
                                                                            Procedures and
                                                                                Controls       i
                                                              Controls
        Yes           Yes              Yes                      Yes                No

Stren~ths:An ongoing security awareness program has been implemented. It includes first-
time training for all new employees, contractors, and users, and periodic refresher training
thereafter. Technical staff receive annual security training according to job responsibilities
and needs. Employees see and agree to the rules of behavior during their mandatory annual
security awareness training. A daily security reminder is automatically displayed to
employees during their login process.




                                             Page B - 10
                                                                          Appendix B

Weaknesses: Security Awareness, Training and Education controls are not fully integrated
into the Corporation's overall life cycle planning. The Corporation's System Development
Life Cycle methodology is not applied to the network. (severity: low)



    Level 1    Level 2     Level 3                      Level 4               Level 5
  Documented Documented Implemented                    Tested and         Fully Integrated
    Policy   Procedures Procedures and                 Reviewed           Procedures and
                           Controls                  Procedures and           Controls       1
                                                        Controls
     Yes*          Yes*             Yes*                  Yes*                  No
* some weaknesses observed
Strengths: The current Incident Response Guidelines document is 27 pages long and highly
technical. A new version of the guidelines is being written to make them easier for users to
understand and follow.

Inappropriate or unusual activity is investigated and appropriate actions taken. Intrusion
detection tools are installed on the system. Incident response policies and procedures are
documented, implemented and updated as needed.

Weaknesses: CNS's Incident Response Guidelines do not address the conditions or
procedures for involving the CNS Inspector General (IG) or external federal authorities, as
required by GISRA. However, one incident was recently reported to both the OIG and
FEDCIRC. Reporting procedures should be developed that describe under what conditions an
incident should be reported to the IG or to authorities outside of the CNS such FEDCIRC or
the FBI. The reporting procedures should describe to whom the incident is to be reported and
the information to be provided in the report. (severity: medium)

Incident Response controls are not fully integrated into the Corporation's overall life cycle
planning. The Corporation's System Development Life Cycle methodology is not applied to
the network. (severity: low)


C.     TECHNICAL CONTROLS

       1.                           ~ O NAUTHENTICATION
               ~ D E N T ~ F ~ C A TAND

     Level 1    Level 2     Level 3                         Level 4           Level 5
   Documented Documented Implemented                       Tested and     Fully Integrated
     Policy   Procedures Procedures and                    Reviewed       Procedures and
                            Controls                     Procedures and       Controls
                                                            Controls
       Yes           Yes             Yes*                     Yes                No
 * some weaknesses observed


                                           Page B - 11
                                                                           Appendix B
 mm
Strengths: Password policy and procedures are clearly documented and provided to all users.
All personnel who are given access to the system, including those needing it for a limited
duration, must follow the standard procedures before being granted access. Emergency and
temporary access is not authorized until the standard access request procedures are followed.

Weaknesses: CNS management is aware that some CNS users have weak passwords, and
makes periodic efforts to educate users. Automated enforcement of strong passwords has not
been implemented. (severity: medium)

Identification and authentication controls are not fully integrated lnto the Corporation's
overall life cycle planning. The Corporation's System Development Life Cycle methodology
is not applied to the network. (severity: low)



 I
       Level 1    Level 2     Level 3                    Level 4               Level 5
     Documented Documented Implemented                  Tested and         Fully Integrated
                Procedures Procedures and               Reviewed           Procedures and     1
                              Controls                Procedures and
                                                         Controls
                                                                               Controls
                                                                                              i
                                                                                              I

        Yes          Yes              Yes                  Yes                      No

Strengths: Logical access controls are in place for the local and remote network.

In addition to controlling access to the network by user, CNS controls network access by port
based on the MAC address of the PC or server.

Weaknesses: Logical access controls are not fully integrated into the Corporation's overall
life cycle planning. The Corporation's System Development Life Cycle methodology is not
applied to the network. (severity: low)



     Level 1    Level 2      Level 3                         Level 4           Level 5        1
   Documented Documented Implemented                        Tested and     Fully Integrated       I
 I   policy  I Procedures ~roceduresand                     Reviewed       Procedures and         1
                             Controls                     Procedures and       Controls
                                                             Controls
        Yes           Yes             Yes                     Yes*                  No
* some weaknesses observed
Strengths: The Network Security Plan describes numerous checks that must be made of a
variety of security controls, the frequency of the checks and who is responsible for making
them. Review of various audit logs is included in the list.



                                            Page B - 12
                                                                            Appendix B
 mm
Audit trails are produced by network system software, logging administrative and technical
support activities performed by users.

Weaknesses: There is only verbal affirmation from management that the audit logs are
regularly reviewed or otherwise analyzed. (severity: low)

Audit trail controls are not fully integrated into the Corporation's overall life cycle planning.
The Corporation's System Development Life Cycle methodology is not applied to the
network. (severity: low)




                                            Page B - 13
APPENDIX C
                                                                     Appendix C


                   OFFICEOF INSPECTOR
                                   GENERAL
            CORPORATION
                     FOR NATIONAL
                                AND COMMUNITY
                                            SERVICE




Momentum is the financial management system for the Corporation for National Service
(CNS). The Momentum application was implemented in September 1999, and is comprised
of 10 modules: Accounts Payable, Accounts Receivable, Automated Disbursements, Budget
Execution, Cost Allocation, General Ledger, General System, Planning, Project Cost
Accounting and Purchasing. Momentum is accessed through the CNS LAN by up to 150
users nationwide.

Momentum was developed by American Management Systems (AMS), who remains
responsible for development, maintenance and configuration control of the application.
Momentum hardware is operated for CNS at the Department of Interior (DOI) National
Business Center (NBC) in Reston, Virginia. CNS has a Memorandum of Agreement with the
NBC. NBC in turn has a contract with AMS for maintenance of the Momentum software.
The Momentum system is connected to the CNS LAN by a dedicated T-1 line.

Data in the Momentum application is critical to CNS financial management. Information in
the system may be sensitive and is covered under the Privacy Protection Act. The Momentum
system also transmits sensitive but unclassified data.

The "senior program official" in CNS responsible for Momentum, in accordance with
GISRA, is Gerry Yetter, Director of Accounting.



Security policies relating to Momentum are generally comprehensive and well documented.
However, policies should be updated to be in accordance with GISRA, and to specifically
address the role of the senior program official responsible for Momentum in the assessment of
risks, potential business impacts and degree of mitigation achieved through security controls.

Procedures implementing policies are not as well documented as the policies, but for the most
part are effective. However, the recently conducted Momentum risk assessment did not
specifically consider the business impact that would result, if Momentum became unavailable.
This gap may result from the absence of CNS specific procedures for conducting risk
assessments, and in this case relied on the judgment of the firm with whom they contracted
for the re-accreditation assessments.

Momentum has three external interfaces: to the USDA National Finance Center, to the
SPAN/TRUST interface and to the Department of Health and Human Services. Written


                                          Page C - 1
                                                                     Appendix C

authorization and a clear delineation of responsibilities for information security is not
established for these external interfaces.

CNS policy requires re-accreditation of systems every three years, and re-accreditation
includes a review of system controls. There is no policy for more frequent, on-going security
controls review of Momentum. The re-accreditation done in 2001 was only for a one year
period. CNS plans to repeat the process again during 2002.

The methodology used for this GISRA assessment is the CIO Council's Federal Information
Security Self-Assessment Framework. The Self-Assessment Framework requires the use of
the control criteria found in NIST Special Publication 800-26.

The following table summarizes the results of the assessment that was done based on the
above standards and criteria. The remainder of this report summarizes the key strengths and
weaknesses for each of the major control objectives. Each weakness is classified lnto a high,
medium and low severity rating. Special weight was given to those areas that are directly
addressed by the GISRA legislation.




                                           Page C - 2
                                                                                                                             Appendix C




                            I     Level 1    I     Level 2            Level 3                Level 4                 Level 5
         Control            I   Documented   I   Documented   I    Implemented     I   Tested and Reviewed   I   Fully Integrated
         Criteria                 Policy         Procedures       procedures and         Procedures and          ~roceduresand
                                                                     Controls                Controls                Controls     -
  OVERALL                          Yes             Yes*               Yes*                   Yes*                      No        -
                                                                                                                                 -
  MANAGEMENT                                                                                                                     -
  1. Risk Management               Yes             NO                 Yes*                   Yes                      NO         -
  2. Security Controls             Yes             Yes                Yes                    Yes*                    Yes*
  3. Life Cycle                    Yes             Yes                Yes*                    NO                      NO         -
  4. Authorize Processing          Yes             Yes                Yes*                   Yes                     Yes*        -
 5. Security Plan                  Yes             Yes                Yes                    Yes                      NO

  OPERATIONAL
  I. Personnel Security           Yes*             Yes*               Yes*                   Yes                     Yes*
 2. Physical Protection           Yes              Yes                Yes                    Yes*                    Yes*
 3. Production vo                 Yes              Yes                Yes                    Yes                     Yes
 4. Contingency Plan              Yes              Yes                Yes                    Yes*                     NO
 5. HardwareISoftware             Yes              Yes                Yes                    Yes                     Yes
 6. Data Integrity                Yes              Yes                Yes                    Yes                     Yes
 7. Documentation                 Yes              Yes                Yes                    Yes                     Yes
 8. Securitv Training             Yes              Yes*               Yes                    Yes                     Yes
 9. Incident Response             Yes*             Yes*               Yes*                   Yes*                     NO
              -                                                                                      -   --       -         -
                                                                                                                            -


 TECHNICAL
 1. Authentication     Yes                         Yes                Yes*                   Yes                      Yes
 2. Logical Access     Yes                         Yes                Yes                    Yes                      Yes
  3. Audit Trails      NO                          Yes                Yes*                   Yes*                     NO
* some weaknesses observed

                                                              Page C - 3
                                                                          Appendix C


A.       MANAGEMENT CONTROLS



       Level 1    Level 2     Level 3                       Level 4              Level 5
     Documented Documented Implemented                     Tested and        Fully Integrated
       Policy   Procedures Procedures and                  Reviewed          Procedures and
                              Controls                   Procedures and          Controls
                                                            Controls
     Yes            No               Yes*                     Yes                  No
* some weaknesses observed
Strengths: Risk assessments have been conducted for Momentum as part of the recent re-
accreditation of the system, and in accordance with the CNS Computer Security policy.

Weaknesses: There are no documented agency-wide procedures specifying how risk
assessments should be done, and, no documented procedures for evaluating business risk. In
the most recent risk analysis Momentum outage impacts are only expressed as high, medium,
and low. There has been no evaluation of the business impact that would result if Momentum
functionality is lost. (severity: medium)

In accordance with GISRA requirements, CNS has recently instituted a procedure to have the
appropriate senior program official formally accept responsibility for the levels of risk and
mitigation within the systems that support mission critical programs. This has been done for
Momentum. Policies, procedures, position descriptions, and other related documents should
be updated to incorporate the GISRA requirements. (severity: low)

CNS policies require risk assessments to be performed at least every three years or as changes
are implemented in the application system. GISRA requires a review annually, as opposed to
every three years, as was previously required. Beginning in 2001, CNS is transitioning to
annual assessments. (severity: low)



       Level 1    Level 2     Level 3                       Level 4              Level 5
     Documented Documented Implemented                     Tested and        Fully Integrated
       Policy   Procedures Procedures and                  Reviewed          Procedures and
                              Controls                   Procedures and          Controls
 I                                                          Controls                            I
 I      Yes          Yes              Yes                    Yes*                 Yes*
* some weaknesses observed
Strengths: Security controls for CNS's mission critical systems have been reviewed every
three years in accordance with OMB A-130 re-accreditation requirements. A re-accreditation
security review was done for Momentum in 2001.



                                            Page C - 4
                                                                          Appendix C

Weaknesses: CNS's Network and Computer Security policy states that "The Corporation
conducts an independent audit or review on all major application or general support systems
every three years to verify the levels of protection are adequate and appropriate." CNS
Network Computer Security Plan does not state the fkequency of security controls reviews.
GISRA requires a review annually, as opposed to every three years, as was previously
required. A GISRA assessment, in accordance with OMB Memorandum M-01-08, using the
CIO Council's Federal Information Technology Security Assessment Framework was not
done. (severity: medium)




 F
 1
                  Level 2     Level 3
     Documented Documented Implemented
       Policy   Procedures Procedures and
                                                            Level 4
                                                           Tested and
                                                           Reviewed
                                                                                 Level 5
                                                                             Fully Integrated
                                                                             Procedures and
 1                            Controls                   Procedures and          Controls
 L
 i Yes           I
                      Yes            Yes*
                                                            Controls
                                                               No                  No
*    some weaknesses observed

Strengths:
      -    CNS has a systems development life cycle policy and methodology, and maintains
documentation related to the Momentum application. A systems security plan for Momentum
was developed during the accreditation process. CNS's Momentum application is in the
operational phase of the system development life cycle. Operational security responsibilities
for the Momentum system are divided between CNS staff and the National Business Center
(NBC) staff. The application software was developed by AMS. NBC maintains a contract
with AMS for system maintenance, and itself provides software configuration tracking of
changes and enhancements per its Memorandum of Agreement with CNS.

Weaknesses: There is very little documentation to substantiate that a System Development
Life Cycle (SDLC) process continues to be followed for Momentum.

          4.     AUTHORIZE
                         PROCESSING
                                  (CERTIFICATION
                                              AND ACCREDITATION)

                       Level 2     Level 3                  Level 4              Level 5
                     Documented Implemented                Tested and        Fully Integrated
        Policy       Procedures Procedures and             Reviewed          Procedures and
                                   Controls              Procedures and          Controls
                                                            Controls
         Yes            Yes          Yes*                     Yes                 Yes*          I
* some weaknesses observed
Strengths: CNS has in place a computer security policy and plan that require applications to
be re-accredited every 3 years. CNS's mission critical application systems, including
Momentum, were officially re-accredited in June 2001. During this process a security




                                            Page C - 5
                                                                          Appendix C


evaluation, risk assessment and penetration testing were completed. Accreditation reports are
developed and maintained as required.

Weaknesses: Momentum has three external interfaces: to the USDA National Finance Center,
SPANITrust and the Department of Health and Human Services. Written authorization and a
clear delineation of responsibilities for information security do not exist for these external
interfaces. (severity: medium)



 I   Level 1 I Level 2       Level 3              1         Level 4        I       Level 5        1
 1 Documented Documented Implemented                       Tested and          Fully Integrated   1
 j   Policy    Procedures Procedures and                   Reviewed            Procedures and
                             Controls                    Procedures and            Controls



Strengths: CNS maintains a system security plan for the Momentum application, in
accordance with the CNS Computer Security Policy. The security plan was developed in
accordance with NIST 800-18 guidance.

Weaknesses: A summary of Security Plans is not incorporated in the Corporation's
Information Management Strategic Plan as required by GISRA. (severity: medium)


B.           OPERATIONAL CONTROLS



           Level 1    Level 2     Level 3                   Level 4                Level 5
         Documented Documented Implemented                 Tested and          Fully Integrated       ,

     1     Policy   Procedures Procedures and              Reviewed            Procedures and
     I                            Controls               Procedures and            Controls
                                                            Controls
      Yes*         Yes*              Yes*                     Yes                   Yes*
 * some weaknesses observed
Strengths: Personnel security controls are in place for the Momentum system. Formal
documented processes exist for requesting, issuing and establishing access and privileges
within the Momentum application. CNS maintains computer security policy based on the
concept of least privilege, which requires that users only have access to that information that
they require to perform their job function. User rights are reviewed quarterly for
appropriateness.




                                            Page C - 6
                                                                               Appendix C


Weaknesses: CNS does not perform extensive background checks on its employees. The
Human Resources Office has not issued any written policies on employee screening, but
reports that it does request a National Agency Check on employees serving in certain select
positions after they are hired. This requirement does not apply to all personnel. Additionally,
Corporation termination procedures are not formally documented. Procedures should be
documented for both friendly and unfriendly terminations. (severity: medium) Rules of
Behavior for Momentum have not been set forth and are still under development by the CNS
Financial Systems Group. However, partially compensating controls exist. The Information
Systems Request form requires users to acknowledge password security requirements, non-
disclosure of government information, proper use of information, and legal responsibilities.
(severity: low)

             2.     PHYSICAL
                           AND ENVIRONMENT
                                        PROTECTION

 I         ~ e v e 1l    Level 2        Level 3                  Level 4                Level 5
 1       Documented ( Documented ( Implemented (                Tested and      1   Fully Integrated   1
 1         Policy     I Procedures 1 Procedures and 1           Reviewed        I   Procedures and     1
 I                    I            I Controls I               Procedures and    I       Controls       1
 I                                                               Controls                              i
 I    Yes          Yes                    Yes                     Yes*                   Yes*
* some weaknesses observed
Strengths: Physical and environmental controls have been implemented for the Momentum
application by the DO1 National Business Center.

Weaknesses: The Service Level Agreement with the National Business Center does not
address the facilities or environmental protection that is to be provided. GAO recently
identified weak computer security controls at the National Business Center in GAO-01-6 15,
"Interior Information Security: Weak Controls Place Interior's Financial and Other Data at
Risk", issued in July 2001. (severity: low)



     I     ~ e v e 1l  Level 2      Level 3                      Level 4                Level 5
         Documented Documented Implemented                      Tested and          Fully Integrated
           Policy     Procedures Procedures and                 Reviewed            Procedures and
                                    Controls                  Procedures and            Controls
                                                                 Controls
             Yes           Yes             Yes                     Yes                    Yes

Strengths: User manuals are available for reference. The Momentum application has built in
edit checks to ensure that data entered is within a valid character set. Reports generated from
the Momentum system by CNS employees have a sensitivity designation. CNS management
has stated that 1) the Financial Services group of CNS periodically performs reviews of
transactions for budgeting purposes to investigate anomalies; 2) on a monthly basis a review


                                                 Page C - 7
                                                                          Appendix C

of users requesting transactions is performed to ensure that appropriate personnel are making
requests; and 3) a monthly review is also performed to ensure that users obligating funds are
not making payments as well.

Weaknesses: Users who have a need to run a report in Momentum are all given the same user
identification and password. This practice gives them the, ability to run the Momentum
reports needed, but it weakens accountability for who is accessing the data in the system.
(severity: medium)

         4.    CONTINGENCY
                         PLANNING

     Level 1    Level 2     Level 3                         Level 4              Level 5
   Documented Documented Implemented                       Tested and        Fully Integrated
     Policy   Procedures Procedures and                    Reviewed          Procedures and
 I                          Controls                     Procedures and          Controls
                                                            Controls
         Yes         Yes             Yes                     Yes*                  No
* some weaknesses observed
Strengths: CNS maintains an agency wide Continuity of Operations Plan. The Department of
the Interior National Business Center has continuity and disaster recovery procedures that
would move the Momentum application to an alternate processing site in Denver, in the event
of a disaster. CNS tested its disaster recovery plan in August 2001.

Weaknesses: The disaster recovery testing did not include business continuity plan testing.
(severity: medium) The Department of the Interior National Business Center Momentum
Disaster Recovery and Backup Plan is currently only in draft. (severity: medium)

          5.    HARDWARE
                       AND SYSTEM
                                SOFTWARE
                                       MAINTENANCE

        Level 1    Level 2     Level 3                      Level 4              Level 5
      Documented Documented Implemented                    Tested and        Fully Integrated

 !!              Procedures Procedures and
                               Controls
                                                           Reviewed
                                                         Procedures and
                                                            Controls
                                                                             Procedures and
                                                                                 Controls

         Yes          Yes             Yes                     Yes                  Yes

Strengths: Hardware and software maintenance and development controls are in place for the
Momentum system. CNS follows a systems development lifecycle methodology. The
application is currently in the operational phase and is operated by the Department of the
Interior National Business Center (NBC). The Service Level Agreement with the NBC calls
for the NBC to provide monitoring, maintenance and tracking of configuration changes for
the hardware, system software, database software and telecommunications.

Weaknesses: None observed.



                                            Page C - 8
                                                                          Appendix C




    Level 1    Level 2     Level 3                          Level 4              Level 5
  Documented Documented Implemented                        Tested and        Fully Integrated
                                                                                       -
    Policy   Procedures procedures and                     Reviewed          Procedures and
                           Controls                      Procedures and          Controls
                                                            Controls
      Yes            Yes             Yes                      Yes                  Yes

Strengths: Corporation management states that the Financial Services group periodically
performs reviews of transactions for budgeting purposes to investigate anomalies.
Specifically, on a monthly basis a review of users requesting transactions is performed to
ensure that appropriate personnel are making requests. And also, a monthly review is
performed to ensure that users obligating funds are not making payments as well. A user
support help desk and training are available to assist users who experience problems with the
Momentum application.

Weaknesses: None observed.



     Level 1    Level 2     Level 3                         Level 4              Level 5
   Documented Documented Implemented                       Tested and        Fully Integrated
 i
     Policy     I
              Procedures procedures and                    Reviewed          ~rocedur&and       I
                            Controls                     Procedures and
                                                            Controls
                                                                                 Controls
                                                                                                I
      Yes            Yes             Yes                      Yes                  Yes

Strengths: Documentation controls are in place for the Momentum system. AMS developed
the Momentum application and provided user, administration and training manuals and guides
to CNS. CNS management has stated that a Disaster Recovery Plan for the Momentum
application hosted at the National Business Center is in draft.

Weaknesses: None observed.

       8.      SECURITY
                      AWARENESS,
                              TRAINING
                                     AND EDUCATION

     Level 1    Level 2     Level 3                         Level 4              Level 5
   Documented Documented Implemented                       Tested and        Fully Integrated
     Policy   Procedures Procedures and                    Reviewed          Procedures and
 I                          Controls                     Procedures and          Controls
                                                            Controls
       Yes           Yes*             Yes                     Yes                  Yes
* some weaknesses observed


                                            Page C - 9
                                                                        Appendix C

Strengths: Adequate security awareness and training programs are in place for the
Momentum system. Corporation employees and contractors are required to complete annual
security awareness training. Training requires all CNS IT users to acknowledge rules and
guidelines by which they must abide. Momentum specific training is provided on an as
needed basis to Momentum users. An electronic version of the Momentum documentation is
available on the Corporation's Intranet site.

Weaknesses: Rules of Behavior for the Momentum application are still under development
by the CNS Financial Systems Group. (severity: low)



1     ~ e v e 1l  Level 2      Level 3                    Level 4               Level 5
    Documented Documented Implemented                    Tested and         Fully Integrated   1
      Policy     Procedures Procedures and               Reviewed           Procedures and
                               Controls                Procedures and           Controls
                                                          Controls
       Yes*          Yes*             Yes*                 Yes*                    No
* some weaknesses observed
Strengths: CNS has documented Computer Incident Response Guidelines which specify
internal reporting procedures for detected security incidents.

Weaknesses: CNS's Incident Response Guidelines do not address the conditions or
procedures for involving the CNS Office of Inspector General (OIG) or external federal
authorities, as required by GISRA. Reporting procedures should be developed that describe
under what conditions an incident should be reported to the OIG or to authorities outside of
the CNS such as FEDCIRC or the FBI. The reporting procedures should describe to whom
the incident is to be reported and the information to be provided in the report. The CIO
acknowledges the requirement to update the reporting guidelines to comply with GISRA and
is in the process of completing that task. In the interim, the CIO has indicated they will report
security incidents to the OIG and appropriate external authorities. (severity: medium) CNS
should ensure that the National Business Center has procedures to notify the appropriate CNS
authorities if an incident is detected relating to the Momentum application, and that such
notification is included in the NBC Service Level Agreement. (severity: high)




                                             Page C - 10
                                                                      Appendix C


C.      TECHNICAL CONTROLS

        1.                         ~ O NAUTHENTICATION
              ~ D E N T ~ F ~ C A TAND

    Level 1    Level 2     Level 3                      Level 4              Level 5
  Documented Documented Implemented                    Tested and        Fully Integrated
    Policy   Procedures Procedures and                 Reviewed          Procedures and
                           Controls                  Procedures and          Controls
                                                        Controls
    Yes           Yes               Yes*                  Yes                  Yes
 some weaknesses observed

Strennths: Identification and authentication controls are in place for the Momentum system.
All CNS users are required to identify and authenticate themselves, by providing a valid
usernarne and password at the network level. CNS users who have been assigned Momentum
privileges are then required to provide a separate Momentum user name and password to
login in to the application. Passwords are masked when .the user logs in and users are
required to change their password at a minimum every 90 days. CNS management has stated
that lists of current users are generated quarterly (every 90 days) and are provided to
management to review for appropriateness. Distribution of initial Momentum passwords and
user account information is documented and the process is adequately controlled.

Weaknesses: CNS management acknowledges that some CNS users have weak passwords
and makes periodic efforts to educate users. Automated enforcement of strong passwords has
not been implemented. Additional authentication methods are not used. CNS has
undocumented procedures for OIT to issue and reissue passwords. (severity: medium)



       Level 1    Level 2     Level 3                   Level 4              Level 5
     Documented Documented Implemented                 Tested and        Fully Integrated
       Policy   Procedures Procedures and              Reviewed          Procedures and
                              Controls               Procedures and          Controls
                                                        Controls
        Yes          Yes             Yes                  Yes                  Yes

Strengths: Logical access controls are in place for the Momentum system. CNS users are
required to login to the CNS network before they are able to access the Momentum
application. Users are required to use a separate login for the Momentum application. User
accounts are reviewed quarterly to ensure that only authorized employees have accounts.
Upon login to the CNS network a login banner is displayed. No separate login banner is
displayed when users login to the Momentum application.

Weaknesses: None observed.




                                           Page C - 11
                                                                      Appendix C




    Level 1    Level 2     Level 3                      Level 4              Level 5
  Documented Documented Implemented                    Tested and        Fully Integrated
    Policy   Procedures Procedures and                 Reviewed          Procedures and
                           Controls                  Procedures and          Controls
                                                        Controls
      No           Yes              Yes*                 Yes*                  No
* some weaknesses observed
Strengths: A transaction journal logs every transaction that is processed. According to CNS
management, periodic tests and reviews of the data are performed by the Financial Services
group. Monthly tests are performed to verify that users requesting transactions are not
obligating funds and that users obligating funds are not making payments. An additional
monthly review is performed of the budgets for all transactions processed by Momentum. A
quarterly review is performed to verify that access rights are appropriate. User manuals and
training are provided that specify how to complete these functions within Momentum, and
how to review the transaction logs.

Weaknesses: There is no policy that requires that the procedures and tests listed above be
performed regularly. For instance, there is no policy that the "Security Access Violation
Query" and "Override Error Log Query" reports be generated and reviewed regularly.




                                           Page C - 12
APPENDIX D
                                                                         Appendix D




                   OFFICEOF INSPECTOR
                                    GENERAL
                     FOR NATIONAL
            CORPORATION          AND COMMUNITY
                                             SERVICE

                SYSTEMFOR PROGRAMS,AGREEMENTS
             AND NATIONALSERVICEPARTICIPANTS
                                           (SPAN)
                   GlSRA ASSESSMENTSUMMARY


The SPAN application was implemented in 1995 to process education award payments for the
ArneriCorps National Service Program. The VISTA Management System (VMS), integrated
into SPAN in March 2001, tracks the status of and makes payments to participants of the
Volunteers in Service to America (VISTA) program. Three dedicated Windows NT servers
within the Corporation Network provide separate production, development, and testing
platforms for SPAN. SPAN is based on an Oracle database management system, and was
developed using Oracle application development tools, Oracle Forms for data entry screens,
Crystal Report Writer and Oracle Reports for report generation. SQL SECURE Password
Manager by BrainTree provides authentication and access security to SPAN.

SPAN interfaces with Momentum, WBRS, and the Department of the Treasury. Weekly file
uploads to Momentum update Corporation accounting data. SPAN uses electronic file
transfers to receive enrollment data from WBRS, and to provide updated financial information
to WBRS. For the Treasury interface, a SPAN export function creates a payment file which is
electronically transmitted to Treasury from a stand-alone workstation using Treasury
software. There is no direct connection between SPAN and Treasury's financial management
system.

The senior Corporation for National Service (CNS) program official responsible for SPAN is
Charlene Dunn, Director of Trust Management.



Security policies relating to SPAN are generally comprehensive and well documented.
However, in accordance with GISRA, policies should be updated to specifically address the
role of the senior program official responsible for SPAN in the assessment of risks, potential
business impacts and degree of mitigation achieved through security controls.

Procedures implementing policies are not as well documented as the policies, but for the most
part are effective. For instance, the recently conducted SPAN risk assessment does not
specifically consider the business impact that would result, if SPAN became unavailable.
This gap may result from the absence of CNS specific procedures for conducting risk
assessments. CNS contracts with a commercial vendor to perform this analysis and relies on
its methodology and expertise.


                                          Page D - 1
                                                                         Appendix D
qm
General security controls are the same as for other systems on the CNS network. But SPAN
specific security controls are not documented. For instance, there is no documentation of
procedures for an on-going process of security controls review specifically for SPAN, and no
documentation of procedures for handling and reviewing SPAN audit logs. Although CNS
management has stated that the System Development Life Cycle methodology was followed
during the recent integration of VMS into SPAN, there is little supporting SDLC
documentation for SPAN.

As with other systems on the CNS network, CNS management acknowledges that some CNS
users have weak passwords and makes periodic efforts to educate users. Automated
enforcement of strong passwords has not been implemented. Additional authentication
methods are not used.

The methodology used for this GISRA assessment is the CIO Council's Federal Information
Security Self-Assessment Framework. The Self-Assessment Framework requires the use of
the control criteria found in NIST Special Publication 800-26.

The following table summarizes the results of the assessment that was done based on the
above standards and criteria. The remainder of this report summarizes the key strengths and
weaknesses for each of the major control objectives. Each weakness is classified into a high,
medium and low severity rating. Special weight was given to those areas that are directly
addressed by the GISRA legislation.




                                          Page D - 2
                                                                                                         Appendix D




                            I   Level 1
         Control            I Documented
         Criteria               Policy                               Reviewed           Procedures and
                                                        Controls   Procedures and          Controls
                            I

  OVERALL                        Yes

  MANAGEMENT                                                                        I
  1. Risk Management             Yes       NO            Yes*          Yes                   NO
  2. Security Controls           Yes       Yes           Yes           Yes*                 Yes*
  3. Life Cycle                  Yes       Yes           Yes*           NO                   NO
  4. Authorize Processing        Yes       Yes           Yes           Yes                  Yes
  5. Security Plan               Yes       Yes           Yes           Yes                   NO

  OPERATIONAL
  I. Personnel Security         Yes*       Yes*          Yes*          Yes                  Yes*
 2. Physical Protection         Yes        Yes*          Yes*          Yes*                  NO
 3. Production    vo            Yes        Yes*          Yes*          Yes                  Yes*
 4. Contingency Plan            Yes        Yes           Yes           Yes*                  NO
 5. HardwareISoftware           Yes        Yes*          Yes*          Yes*                  NO
 6. Data Integrity              Yes        Yes*          Yes*          Yes                  Yes*
 7. Documentation               Yes        Yes*          Yes           Yes                  Yes*
 8. Security Training           Yes        Yes           Yes           Yes                  Yes
 9. Incident Response           Yes*       Yes*          Yes*          Yes*                  NO

 TECHNICAL
 I. Authentication              Yes        Yes           Yes*          Yes                  Yes
 2. Logical Access              Yes        Yes           Yes           Yes                  Yes
 3. Audit Trails                Yes        Yes*          Yes*          Yes*                 NO
* some weaknesses observed
                                                  Page D - 3
                                                                           Appendix D


A.          MANAGEMENT CONTROLS


                                                                                              -
          Level 1    Level 2     Level 3                     Level 4           Level 5
        Documented Documented Implemented                   Tested and     Fully Integrated
          Policy   Procedures Procedures and                Reviewed       Procedures and
                                 Controls                 Procedures and       Controls
                                                             Controls
       Yes            No              Yes*                     Yes               No
*   some weaknesses observed

Strengths: Risk Management policies for SPAN are documented and current. A risk analysis
was conducted as part of the SPAN re-accreditation process, and is included as part of the
accreditation document. The re-accreditation was completed in June 2001, and is effective for
one year.

 Weaknesses: There are no documented agency-wide procedures specifying how risk
assessments should be done, and, no documented procedures for evaluating business risk.
CNS contracts with a commercial vendor to perform this analysis and relies on its expertise.
In the most recent risk analysis SPAN outage impacts are only expressed as high, medium,
and low. There has been no evaluation of the business impact that results when SPAN
functionality is lost. (severity: medium)

In accordance with GISRA requirements, CNS has recently instituted a procedure to have the
appropriate senior program official formally accept responsibility for the levels of risk and
mitigation within the systems that support mission critical programs. This has been done for
SPAN. Policies, procedures, position descriptions, and other related documents should be
updated to incorporate these GISRA requirements. (severity: low)



    I     ~ e v e 1l 1 Level 2       Level 3                 Level 4           Level 5
        Documented Documented Implemented                   Tested and     Fully Integrated
          Policy       Procedures Procedures and            Reviewed       Procedures and
                                     Controls             Procedures and       Controls
                                                             Controls
            Yes          Yes           Yes                     Yes*              Yes*
* some weaknesses observed
Stren~ths: CNS policy requires that the security controls for mission critical systems be
reviewed every three years as part of the re-accreditation process. A recent review of SPAN
security controls was performed. The report is included in the SPAN Accreditation document
dated June 2 1,2001, and is effective for one year.



                                             Page D - 4
                                                                          Appendix D
 m
Weaknesses: A GISRA assessment in accordance with the CIO Council's Federal
Information Technology Security Assessment Framework was not done. The SPAN Security
Controls Review Report included with the SPAN Accreditation Report does not indicate any
controls testing that may have been conducted during the SPAN accreditation process. In
addition, there is no evidence that during the recent integration of VMS into SPAN any new
controls have been tested to ensure that the new controls meet security specifications.
(severity: low)

No documentation has been identified that demonstrates that an on-going process is in place
to evaluate the effectiveness of SPAN security controls, or to maintain adequate protections.
(severity: low)



    Level 1    Level 2     Level 3                          Level 4           Level 5
  Documented Documented Implemented                        Tested and     Fully Integrated 1
    Policy   Procedures Procedures and                     Reviewed       Procedures and 1
                                                                                           I
                           Controls                      Procedures and       Controls
                                                            Controls
     Yes           Yes               Yes*                     No                No
* some weaknesses observed
Stren~ths: The SPAN Security Plan states that the CNS System Development Life Cycle
(SDLC) process was followed for the implementation, development, and
operation/maintenance phase of the SPAN life cycle. The SPAN Security Plan also states that
the IT Security Representative was heavily involved with the recent integration of VMS into
SPAN. SPAN is now in its operational phase.

Weaknesses: There is little documentation to substantiate that an SDLC process was followed
during the recent integration of VMS into SPAN, and also, little documentation of a change
control process used for applying vendor-provided maintenance updates to Oracle, the
operating system software, and the security software. Lack of such documentation could
hinder an investigation of the source of problems, if a security incident were to occur.
(severity: low)

CNS uses Oracle Designer12000 for application software development and maintenance.
Oracle Designer12000 contains built-in security functions for application-specific privileges
and roles, provides quality control, and includes reporting capabilities for detailed system
design documentation. This provides some compensating controls.




                                            Page D - 5
                                                                        Appendix D


        4.    AUTHORIZE
                      PROCESSING
                               (CERTIFICATION
                                            AND ACCREDITATION)

      Level 1    Level 2     Level 3                      Level 4           Level 5
    Documented Documented Implemented                    Tested and     Fully Integrated
      Policy   Procedures Procedures and                 Reviewed       Procedures and
                             Controls                  Procedures and       Controls
I                                                         Controls
       Yes          Yes             Yes                     Yes               Yes

Strengths: In accordance with CNS policies, SPAN, was formally re-accredited in June 2001
for one year. During the re-accreditation process a security evaluation and risk assessment
were completed, and a security plan developed.

Weaknesses: None observed.



      Level 1    Level 2     Level 3                      Level 4           Level 5
    Documented Documented Implemented                    Tested and     Fully Integrated
      Policy   Procedures Procedures and                 Reviewed       Procedures and
                             Controls                  Procedures and       Controls
                                                          Controls
       Yes           Yes            Yes                     Yes               No

Strengths: CNS has developed and implemented a security plan for the SPAN application, in
accordance with the CNS Computer Security Policy. The plan is included in the SPAN
accreditation document dated June 21, 2001. The accreditation process included a review of
procedures and controls.

Weaknesses: The SPAN Security Plan is not summarized in CNS's Information Management
Strategic Plan, as required by GISRA. (severity: low)

There is no business case document that defines the resources required for the on-going
security of the SPAN system. (severity: low)




                                          Page D - 6
                                                                          Appendix D
 mm
B.      OPERATIONAL CONTROLS

        1.    PERSONNEL
                     SECURITY

      Level 1    Level 2     Level 3                        Level 4           Level 5
    Documented Documented Implemented                      Tested and     Fully Integrated
      Policy   Procedures Procedures and                   Reviewed       Procedures and
                             Controls                    Procedures and       Controls
                                                            Controls
     Yes*          Yes*             Yes*                      Yes              Yes*
* some weaknesses observed
Strengths: Personnel security controls are in place for the SPAN application system.
Documented processes exist for requesting, issuing and establishing access rights and
privileges within the SPAN application. CNS management states that established procedures
and controls are not bypassed to allow emergency access. CNS maintains computer security
policy based on the concept of least privilege, which requires that users only have access to
that information which they require to complete their job function. CNS personnel security
policies and procedures are consistent agency-wide.

Weaknesses: Policies and procedures address accountability, and need-to-know for access to
information and processing, but do not explicitly address separation of duties. CNS does not
perform extensive background checks on its employees. The Human Resources Office has
not issued any written policies on employee screening, but reports that it does request a
National Agency Check on employees serving in certain select positions after they are hired.
This requirement does not apply to all personnel. Employee termination procedures are not
documented. Termination procedures should be documented and include procedures for both
friendly and unfriendly terminations. (severity: low)

         2.    PHYSICAL
                      AND ENVIRONMENT
                                   PROTECTION

       Level 1    Level 2     Level 3                       Level 4           Level 5
     Documented Documented Implemented                     Tested and     Fully Integrated
       Policy   Procedures Procedures and                  Reviewed       Procedures and
                              Controls                   Procedures and       Controls
                                                            Controls
       Yes           Yes*            Yes*                     Yes*               No
*   some weaknesses observed

Strengths: The computer room at CNS headquarters where SPAN operates is a restricted
access facility. Access to the computer room is logged.

Access to general office areas are controlled by electronic access keys. Receptionists control
access for those without access keys.



                                            Page D - 7
                                                                          Appendix D


The computer room has an unintermptible power supply that will allow time for an orderly
shutdown of systems, if a power outage occurs.

Weaknesses: Physical controls are in place, but a physical and environmental risk assessment
has not been done. Controls may not be aligned with actual threats and vulnerabilities. For
instance, plumbing line locations are not documented, so computer equipment and business
records may be vulnerable to water damage. (severity: low)

OIG has previously reported weak accountability for the electronic access keys and for the
master keys that control access to every floor. There are no documented requirements or
procedures for securing unused keys. (severity: medium) Reception personnel do not
consistently challenge visitors. (severity: low)



    Level 1    Level 2     Level 3                          Level 4           Level 5
  Documented Documented Implemented                        Tested and     Fully Integrated
    Policy   Procedures Procedures and                     Reviewed       Procedures and
                           Controls                      Procedures and       Controls
                                                            Controls
      Yes             Yes*           Yes*                     Yes              Yes*
* some weaknesses observed
Strengths: Separate test and development platforms and controls over migrating software into
the production environment control unauthorized access to production systems.

There is no central operations staff for SPAN, except that a help desk at CNS headquarters
provides first level support for questions and technical problems locally and nationally.
SPAN users control the input and output processes.

Weaknesses:       Production input and output controls are informal at CNS headquarters.
(severity: low)




    Level 1    Level 2     Level 3                          Level 4           Level 5        I
  Documented Documented Implemented                        Tested and     Fully Integrated   1
    Policy   Procedures Procedures and                     Reviewed       Procedures and
                           Controls                      Procedures and       Controls
                                                            Controls
      Yes          Yes                Yes                    Yes*               No
  some weaknesses observed

Strengths: A Corporation headquarters Disaster Recovery Plan (DRP) and Business
Continuity 1 Contingency Plan (BCCP) are in place.


                                            Page D - 8
                                                                           Appendix D
 m!?
Weaknesses: The headquarters DRP was tested in August 2001. The BCCP has not been
tested. Distribution of the DRP and BCCP is not documented. Employee training in recovery
roles and responsibilities is not documented. (severity: low)

The Service Center and State Office that were reviewed depend upon headquarters OIT to
restore their IT environment. They do not have documented business recovery plans or
capabilities for recovery of business functions. The file server at the Service Center is backed
up to tape weekly on a four-week rotation. Tapes are kept in a safe located in a room adjacent
to the server room. A tape is sent quarterly to headquarters for permanent archival. (severity:
low)

         5.           AND SYSTEM
               HARDWARE        SOFTWARE
                                      MAINTENANCE

 1     ~ e v e 1l  Level 2      Level 3                      Level 4           Level 5        1
     Documented Documented Implemented                      Tested and     Fully Integrated
       Policy     Procedures Procedures and                 Reviewed       Procedures and
                                Controls                  Procedures and       Controls
                                                             Controls
        Yes          Yes*             Yes*                    Yes*                No
* some weaknesses observed
Strengths: Change control procedures are in place to ensure the integrity and stability of
production hardware and software systems. Separate test and development platforms and
controls over migrating software into the production environment prevent unauthorized access
to production systems.

Access to system software is restricted to a limited number of personnel, corresponding to job
responsibilities. New system software versions or products and modifications to existing
system software receive proper authorization and are supported by a change request
document.

Weaknesses: An informal impact analysis is conducted to determine the effect of proposed
changes on existing security controls, including the required training needed to implement the
control. (severity: low) There is no documentation showing that system components are
tested and approved (operating system, utility, applications) prior to promotion to production.
(severity: low) There is no documentation showing that there are detailed system
specifications prepared and reviewed by management. (severity: low) There is no
documentation showing the type of test data to be used, i.e., live or made up. (severity: low)
There is no documentation showing that there are software distribution implementation orders
including effective date provided to all locations. (severity: low) There is no documentation
showing that the distribution and implementation of new or revised software is documented
and reviewed. (severity: low) There is no documentation showing that emergency changes
are documented and approved by management, either prior to the change or after the fact.
(severity: low) There is no documentation showing that contingency plans and other
associated documentation are updated to reflect system changes. (severity: low)



                                             Page D - 9
                                                                          Appendix D




      Level 1    Level 2     Level 3                     Level 4              Level 5
    Documented Documented Implemented                   Tested and        Fully Integrated
      Policy   Procedures Procedures and                Reviewed          Procedures and
                             Controls                 Procedures and          Controls
                                                         Controls
       Yes           Yes*            Yes*                  Yes                 Yes*
*   some weaknesses observed

Stren~ths: Data integrity and validation controls are used to provide assurance that the
information has not been altered and the system functions as intended.

SPAN data integrity is maintained through access control procedures. Users are restricted
based on need-to-know, and the principle of "least privilege" as determined and authorized by
the employee's supervisor. Corrections to invalid entries in the database cannot be made
using the Oracle Forms interface. Corrections can only be made by a designated SPAN user
who is given temporary SQL access, and only after justification for the action is provided and
the change is approved by the Director of the National Service TRUST, the Deputy CIO, the
DBA, and the Information Systems Security Officer.

Inappropriate or unusual activity on the SPAN system is investigated and appropriate actions
taken.

Procedures are in place to determine compliance with password policies.

Penetration testing is performed on the SPAN system when changes are significant enough to
warrant re-testing.

Weaknesses: There is no documentation concerning whether reconciliation routines are used
for the SPAN application, i.e., checksums, hash totals, record counts. (severity: low)

There is no documentation showing that integrity verification programs are used by the SPAN
application to look for evidence of data tampering, errors, and omissions. (severity: low)

WBRS provides data that feeds into SPAN. Because access to W R S is controlled by many
organizations, and is not under CNS direct control, there is a potential for the WBRS data to
be corrupted. That could result in unreliable data being passed to SPAN. (severity: low)

There is no documentation showing that system performance monitoring is used to analyze
system performance logs in real time to look for availability problems, including active
attacks. (severity: low)




                                            Page D - 10
                                                                        Appendix D




       Level 1    Level 2     Level 3                 Level 4               Level 5
     Documented Documented Implemented               Tested and         Fully Integrated
       Policy   Procedures Procedures and            Reviewed           Procedures and
                              Controls             Procedures and           Controls
                                                      Controls
        Yes         Yes*             Yes                Yes                   Yes*
* some weaknesses observed
Strengths: User documentation for the SPAN application is available on-line. Oracle system
documentation is also maintained on-line. The Oracle Designer12000 tool is used to
document business requirements, visually model the database schema, produce the entity
relationship diagram, and create the database schema. Designer12000 is also used to
document the internal processes and configuration of the SPAN application.

Weaknesses: The following types of documentation are lacking:
  - written agreements regarding how data is shared between interconnected systems
     (severity: low);
  -  backup procedures specific to the SPAN application and system software (severity:
     low); and
  - software and hardware testing procedures and results (severity: low).

         8.    SECURITY
                      AWARENESS,
                              TRAININGAND EDUCATION

       Level 1    Level 2     Level 3                 Level 4                Level 5

 1     Policy   1
     Documented Documented Implemented
                Procedures Procedures and
                              Controls
                                                     Tested and
                                                     Reviewed
                                                   Procedures and
                                                                         Fully Integrated
                                                                         Procedures and
                                                                             Controls
                                                      Controls
        Yes          Yes             Yes                Yes                    Yes

Strengths: All Corporation employees and contractors are required to complete annual
security awareness training. Training requires all CNS IT users to acknowledge rules and
guidelines by which they must abide. SPAN-specific training is provided for users as needed,
and a help desk provides additional support for questions and problems. The SPAN
Operator's Guide also emphasizes the user's security responsibilities. Information technology
and security personnel attend conferences and specialized training to further their knowledge
of security.

Weaknesses: None observed.




                                           PageD- 11
                                                                          Appendix D




   Level 1    Level 2     Level 3                       Level 4               Level 5
 Documented Documented Implemented                     Tested,and         Fully Integrated
   Policy   Procedures Procedures and                  Reviewed           Procedures and
                          Controls                   Procedures and           Controls
                                                        Controls
     Yes*          Yes*             Yes*                 Yes*                   No
* some weaknesses observed
Strengths: CNS has documented Computer Incident Response Guidelines which specify
internal reporting procedures for detected security incidents.

CNS management states that alerts/advisories are routinely received from multiple external
sources, and appropriate action taken.

Weaknesses: CNS's Incident Response Guidelines do not specify under what circumstances
extemal federal authorities will be notified, nor under what circumstances the CNS Office of
Inspector General will be notified, as required by GISRA. They also do not address
notification to owners of interconnected systems. The procedure for contacting other parties,
the points of contact, and the nature of the information to be provided to them is not
described. The CIO acknowledges the requirement to update the reporting guidelines to
comply with GISRA and is in the process of completing that task. In the interim, the CIO has
indicated they will report security incidents to the OIG and appropriate extemal authorities.
(severity: medium)

The following types of documentation are lacking:
   -   documentation showing that incidents are monitored and tracked until resolved
       (severity: low); and
   - documentation showing that personnel are trained to recognize and handle incidents
       (severity: low).


C.     TECHNICAL CONTROLS

       1.                           ~ O NAUTHENTICATION
               ~ D E N T ~ F ~ C A TAND

    Level 1    Level 2     Level 3                          Level 4           Level 5
  Documented Documented Implemented                        Tested and     Fully Integrated
    Policy   Procedures Procedures and                     Reviewed       Procedures and     1
                           Controls                      Procedures and       Controls
                                                            Controls
      Yes            Yes             Yes*                     Yes               Yes
* some weaknesses observed


                                           Page D - 12
                                                                          Appendix D
 ma
Stren~ths:All CNS users are required to identify and authenticate themselves, by providing
valid username and password at the network level. CNS users who have been assigned SPAN
privileges are then required to provide a separate, unique SPAN user name and password to
log into the application. Passwords are masked when the user logs in and users are required
to change their password at a minimum every 90 days. Lists of current users are generated
quarterly (every 90 days) and are provided to management to review for appropriateness.
Accounts are disabled after five failed logon attempts. New SPAN accounts are locked if
they are not used within 30 days. Existing accounts are locked if passwords are not changed
after 90 days. Procedures are in place for handling lost and compromised passwords. All
actions are logged and correlated with users by the system. CNS authentication procedures
are consistent agency-wide.

Weaknesses: CNS management acknowledges that some CNS users have weak passwords
and makes periodic efforts to educate users. Automated enforcement of strong passwords has
not been implemented. Additional authentication methods are not used. (severity: medium)



    Level 1    Level 2             Level 3                 Level 4            Level 5
  Documented Documented          Implemented              Tested and      Fully Integrated
    Policy                                                Reviewed        Procedures and
                                   Controls             Procedures and        Controls
                                                           Controls
                                                             Yes                Yes

Strengths: CNS users are required to log into the CNS network before they are able to access
the SPAN application. Once logged on, the user is restricted to functions and transactions
based on job duties. Oracle is able to restrict access to authorized relations, tables, views,
data elements, and operations. Users are prohibited access to the SQL prompt. Access
control software prevents one individual from having the necessary authority or information
access to allow fraudulent activity without collusion.

There is no direct dial-in to SPAN, and no public access. State offices dial into the
Corporation Network and must be properly authenticated before gaining access to SPAN.
SPAN resides inside the Corporation Network firewall and is protected by an intrusion
detection system. It is CNS policy not to authorize emergency and temporary access until
proper procedures are followed. CNS management states that the SPAN access control list is
internally encrypted on the SPAN computer system.

CNS authentication procedures are consistent agency-wide.

Weaknesses: WBRS provides data that feeds into SPAN. Because access to WBRS is
controlled by many organizations, and is not under CNS direct control, there is a potential for
the WBRS data to be corrupted. That could result in unreliable data being passed to SPAN.
(severity: low) The following types of documentation are lacking:


                                          Page D - 13
                                                                           Appendix D
ma
   -    documentation indicating that terminals automatically log off and screensavers lock
        the session after a period of inactivity (severity: low); and
   -    documentation indicating whether access is restricted to files at the record level or
        field (data element) level (severity: low).

        3.     AUDITTRAILS

    Level 1    Level 2     Level 3                           Level 4           Level 5
  Documented Documented Implemented                         Tested and     Fully Integrated
    Policy   Procedures ~roEeduresand                       Reviewed       procedures and
                           Controls                       Procedures and       Controls
                                                             Controls
     Yes           Yes*               Yes*                     Yes*               No
* some weaknesses observed
Strengths: Audit trails provided by the network operating systems ensure accountability at the
network level. SPAN audits all database activity, and the audit reports are reviewed daily.
All SPAN activity is recorded in the audit log including date, time, user ID, and description of
activity.

Weaknesses: The following types of documentation are lacking:

   -    documentation describing how often SPAN audit trails should be reviewed, and actual
        frequency of review (severity: low);
    -   documentation to indicate whether automated tools are used to review SPAN audit
        records in real time or near real time (severity: low);
    -   documentation to indicate whether there is separation of duties between security
        personnel who administer the access control function and those who administer the
        SPAN audit trail (severity: low); and
    -   documentation to indicate whether SPAN audit logs stored off-line are retained for a
        specified period of time, and if so, whether access to audit logs is strictly controlled
        (severity: low).




                                             P a g e D - 14
APPENDIX E
                                                                  Appendix E


            OFFICEOF INSPECTOR
                             GENERAL
              FOR NATIONAL
     CORPORATION                      SERVICE
                          AND COMMUNITY




Question 1. Identify the agency's total security funding as found in the agency's
FYOl budget request, FYOl budget enacted, and the FY02 budget request.

Response to Question 1: No OIG response to this question is required since OMB's
guidance indicates it is directly solely to the Corporation for National Service.

Question 2. Identify the total number of programs included in the program reviews or
independent evaluations.

Response to Question 2: Self-assessments were done by program managers and the
CIO of application systems deemed mission critical. In response to GISRA
requirements, the OIG during July through September 2001 contracted with KPMG to
perform evaluations of agency-wide information security policies and procedures and
also to conduct independent evaluations of three of the four Corporation systems
(Momentum Financial Management System, Corporation Network, and the System for
Programs, Agreements and National Service Participants (SPAN)). The OIG did not
re-evaluate the Web Based Reporting System (WBRS) at this time since it was
assessed in conjunction with the recent audit of the Corporation's Financial Statement
for Fiscal Year 2000. That audit and the associated Management Letter included
recommendations for improvements in access and password controls and verification
of data inputs to the system. As part of the audit resolution process, the Corporation
agreed to consider recommended changes to M R S . OIG will again evaluate the
effectiveness of WBRS controls as part of the audit of the Fiscal Year 2001 Financial
Statement.

Question 3. Describe the methodology used in the program reviews and the
methodology used in the independent evaluations.

Response to Question 3: OIG and KPMG used the CIO Council's Federal IT
Security Assessment Framework methodology in conjunction with control criteria
from the NIST draft Special Publication, "Self-Assessment Guide for Information
Technology Systems." Control techniques were derived from the related NIST
publications, especially NIST SP 800-18, "Generally Accepted Principles and
Practices for Securing Information Technology Systems". The NIST SP 800-18
control techniques were augmented by FISCAM control techniques.




                                   Page E - 1
                                                                           Appendix E
m a
  Question 4. Report any material weakness in policies, procedures, or practices as
  identified and required to be reported under existing law.

  Response to Question 4: No material weaknesses were identified during the CIO
  assessments or IG evaluations.



  Question 5. What performance measures are used by the agency to ensure that
  program officials have:
         1) assessed the risk to operations and assets under their control;
         2) determined the level of security appropriate to protect such operations and
            assets;
         3) maintained an up-to-date security plan (that is practiced throughout the life
            cycle) for each system supporting the operations and assets under their
            control; and
         4) tested and evaluated security controls and techniques. Include information
            on the actual performance for each of the four categories.

      Response to Question 5: All of CNS's mission critical systems completed a formal
      re-accreditation process in 2001. The re-accreditation included:
              1) a risk assessment and determination of the level of security appropriate to
                  protecting the programs' operations and assets;
              2) an up-to-date security plan;
              3) a security controls review; and
              3) independent tests and evaluations of the security controls and techniques.

      CNS senior program managers reviewed the results of the re-accreditation process and
      signed an affidavit for each of the mission critical systems. The affidavit certifies that
      they understand the risks to the operations and assets under their control, and accept
      responsibility for the degree of security provided to protect such operations and assets.

      Question 6. The specific measures of performance used by the agency to ensure that
      the agency CIO:
             1) adequately maintains an agency-wide security program;
             2) ensures the effective implementation of the program and evaluates the
                 performance of major agency components; and
             3) ensures the training of agency employees with significant security
                 responsibilities. Include information on the actual performance for each of
                 the three categories.




                                           Page E - 2
                                                                   Appendix E


Response to Question 6:
      1) The CIO contracted for independent evaluations of all mission critical
          systems and the corporate network in 2001. The results of the independent
          evaluations were reviewed and approved by senior program officials. In
          addition, the IG conducted a separate GISRA evaluation specifically of
          agency-wide information security policies and procedures.
      2) The CIO contracted for independent evaluations of all mission critical
          systems and the corporate network in conjunction with system re-
          accreditations. The OIG performed separate independent reviews of
          mission critical systems, the network and agency-wide policies and
          procedures.
      3) In addition to the security training that all CNS employees receive,
          information technology (IT) technical staff receive additional specialized
          security training according to job responsibilities and needs. They attend
          technical security training classes and conferences, and subscribe to on-line
          alert sources to further their knowledge of security and remain current with
          the rapidly evolving game of cat and mouse that information security has
          become. In 2001, five IT security specialists have attended eight security
          training classes and conferences.

Questions 7. Describe how the agency ensures that employees are sufficiently trained
in their security responsibilities. Identify the total number of agency employees and
briefly describe what types of security training was available during the reporting
period, the number of agency employees that received each type of training, and the
total costs of providing such training.

Response to Question 7: An ongoing, agency-wide security awareness program has
been implemented. It includes first-time training for all new employees, contractors,
and users, and yearly refresher training thereafter. All Corporation employees and
contractors are required to complete annual security awareness training. Training
requires all CNS users to acknowledge rules and guidelines by which they must abide.
A daily security reminder is automatically displayed to employees during their log in
process. In addition, application system user guides emphasize the user's security
responsibilities.

The number of CNS employees and contractors who received first time security
training during 2001 Is about 200. All CNS employees and contractors, totaling
approximately 750 individuals, received refresher security training during the year.
The total cost of providing such training was approximately $7,500 in contractor costs.

Question 8. Describe the agency's documented procedures for reporting security
incidents and sharing information regarding common vulnerabilities. Include a
description of procedures for external reporting to law enforcement authorities and to
the General Services Administration's FEDCIRC. Include information on the actual
performance and the number of incidents reported.



                                    Page E - 3
                                                                           Appendix E
mna
  Response to Question 8: The following is quoted from the CNS "Computer Incident
  Response Guidelines".

             "If a computer security incident is detected, it must be reported
             immediately to the OIT (Office of Information Technology) Director
             and the ISSO (Information Systems Security Officer). In particular,
             each end user must know how to contact the Director of OIT and the
             ISSO.

             The Director of OIT has the responsibility to report incident
             information to upper management in a timely fashion. In addition, the
             ISSO must report to the Director of OIT promptly in the event of a
             serious breach of security. If there is evidence of criminal activity, it is
             the responsibility of the OIT Director and ISSO to notify the
             Corporation's OIG.

             CAUTION: No Corporation staff member, except the designated
             Corporation spokesperson (and FBI, if involved) has authority to
             discuss any security incident with any person, agency, or organization
             that is not in his or her chain of command."

      In this calendar year, one incident has been reported to the Corporation's OIG and
      to FEDCIRC. The Corporation recognizes the need to revise its guidelines to
      comply with GISRA9snew reporting requirements.

      Question 9. Describe how the agency integrates security into its capital planning and
      investment control process. Were security requirements and costs reported on every
      FY02 capital asset plan (as well as exhibit 53) submitted by the agency to OMB? If
      no, why not?

      Response to Question 9: CNS is a relatively small organization with a limited
      number of senior officials. According to Corporation management, the same senior
      officials comprise the Corporation's resource investment board and are involved in all
      day to day policy decisions. Consequently, many resource investment decisions are
      handled as day to day business, rather than being held for a formal board meeting.

      Security requirements and costs were included, but not separately identified, in the
      FY02 capital asset plan. An estimate of security costs was provided in the Exhibit 53
      for FY02 submitted to OMB.

      Question 10. Describe the specific methodology (e.g., Project Matrix review) used by
      the agency to identify, prioritize, and protect critical assets within its enterprise
      architecture, including links with key external systems.         Describe how the
      methodology has been implemented.




                                           Page E - 4
                                                                        Appendix E
ma
 Response to Question 10: CNS has no national responsibilities for critical
 infrastructure protection. It has a relatively simple technical infrastructure for its
 internal operations. Most of the Corporation's servers and network components are
 centralized in one Washington, D.C. facility. That facility supports all of the
 Corporation's mission critical applications. It has external links to two systems whose
 operations are outsourced, a link to an alternate service provider for payroll, and a link
 to a backup and recovery site. Because of the high degree of centralization, and
 limited number of critical external links, there is only one security infrastructure that
 protects all critical assets.

 Question 11. Describe the measures of performance used by the head of the agency
 to ensure that the agency's information security plan is practiced throughout the life
 cycle of each agency system. Include information on the actual performance.

 Response to Question 11: The Corporation is currently developing only one new
 automated system, the Grants Management System (GMS). OIG has contracted with
 KPMG LLP to conduct a risk assessment of the GMS, including a review of
 development methods and the adequacy of internal controls for information security.
 This assessment is a prelude to OIG's certification of the GMS, as mandated by the
 Departments of Veterans Affairs and Housing and Urban Development, and
 Independent Agencies Appropriations Act for Fiscal Year 2001 (Public Law 106-377),
 once GMS achieves initial operational capability in approximately April 2002.

 The Corporation's planning and periodic status reporting documents show that the
 SDLC methodology has been used and that consideration has been given to security
 controls in the SDLC phases that have been completed for GMS to date. Additionally,
 frequent reviews of the GMS development project are being done by senior
 management, including a personal review by the Corporation's Chief Operating
 Officer at the completion of each major SDLC phase.

     Question 12. Describe how the agency has integrated its information technology
     security program with its critical infrastructure protection responsibilities, and other
     security programs (e.g., physical and operational).

     Response to Question 12: CNS makes no distinction between the critical
     infrastructure protection and information technology security programs. They are
     managed as one and the same. There is no separate prioritization of needs or
     resources.

     Question 13. Describe the specific methods (e.g., audits or inspections) used by the
     agency to ensure that contractor provided services (e.g., network or website
     operations) or services provided by another agency are adequately secure and meet the
     requirements of the Security Act, OMB policy and N E T guidance, national security
     policy, and agency policy.




                                         Page E - 5
                                                                   Appendix E
ma
 Response to Question 13: CNS has two mission critical systems that are out-sourced,
 one to another government agency and one to a commercial firm. In 2001, the CIO
 contracted for security assessments of these systems as part of the re-accreditation
 process. External penetration testing was a part of those security system assessments.
 The OIG also did an independent evaluation of the system out-sourced to another
 government agency. The evaluation included both external and internal penetration
 testing. The testing results were generally favorable.




                                     Page E - 6
